<html>
<title> - ISSUES RELATED TO H.R. 5200, THE NATIONAL DEFENSE ENHANCEMENT AND NATIONAL GUARD EMPOWERMENT ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-110]
 
   ISSUES RELATED TO H.R. 5200, THE NATIONAL DEFENSE ENHANCEMENT AND 
                 NATIONAL GUARD EMPOWERMENT ACT OF 2006

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 13, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                    U.S. GOVERNMENT PRINTING OFFICE
32-976                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK E. UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                 John Chapla, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Tuesday, June 13, 2006, Issues Related to H.R. 5200, The National 
  Defense Enhancement and National Guard Empowerment Act of 2006.     1

Appendix:

Tuesday, June 13, 2006...........................................    49
                              ----------                              

                         TUESDAY, JUNE 13, 2006
   ISSUES RELATED TO H.R. 5200, THE NATIONAL DEFENSE ENHANCEMENT AND 
                 NATIONAL GUARD EMPOWERMENT ACT OF 2006
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Cody, Gen. Richard A., Vice Chief of Staff, U.S. Army............     6
Corley, Gen. John D.W., Vice Chief of Staff, U.S. Air Force......     8
England, Hon. Gordon R., Deputy Secretary of Defense.............     4
Giambastiani, Adm. Edmund P., Jr., Vice Chairman, Joint Chiefs of 
  Staff, U.S. Navy...............................................     5
Koper, Brig. Gen. Stephen M., President, National Guard 
  Association of the United States, U.S. Air Force (Ret.)........    35
Vavala, Maj. Gen. Francis D., Vice President, Adjutants General 
  Association of the United States, U.S. Army (Ret.).............    38

                                APPENDIX

Prepared Statements:

    Cody, Gen. Richard A.........................................    73
    Corley, Gen. John D.W........................................    78
    England, Hon. Gordon R.......................................    62
    Giambastiani, Adm. Edmund P., Jr.............................    66
    Hunter, Hon. Duncan..........................................    53
    Koper, Brig. Gen. Stephen M..................................    96
    Skelton, Hon. Ike............................................    57
    Vavala, Maj. Gen. Francis D..................................   103

Documents Submitted for the Record:

    Letter from the National Governors Association...............   115

Questions and Answers Submitted for the Record:

    Ms. Bordallo.................................................   119
    Ms. Davis....................................................   119
    Mr. Miller...................................................   120
    Mr. Ortiz....................................................   119
    Mr. Skelton..................................................   119
   ISSUES RELATED TO H.R. 5200, THE NATIONAL DEFENSE ENHANCEMENT AND 
                 NATIONAL GUARD EMPOWERMENT ACT OF 2006

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, June 13, 2006.
    The committee met, pursuant to call, at 1:07 p.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    This hearing is the result of a commitment I made at the 
committee's markup in May of the GV Sonny Montgomery National 
Defense Authorization Act for fiscal year 2007. Then the 
committee decided to defer action on H.R. 5200, the National 
Defense Enhancement and National Guard Empowerment Act of 2006, 
by asking the Commission on the national guard and reserves to 
report not later than March 1, 2007, on the advisability and 
feasibility of implementing H.R. 5200.
    During the discussion of H.R. 5200 in committee, members 
made clear their strong interest in an oversight effort to 
address problems and issues with the current system for 
structuring, equipping, manning, training and resourcing the 
national guard, not only for missions conducted in accordance 
with Title 10 of the United States Code under the control of 
the secretary of defense and the combatant commanders, but also 
for operations conducted by the national guard in accordance 
with Title 32 United States Code under the control of the 
governor of a state.
    This hearing is part of that committee oversight effort to 
define and examine the issues and problems tied to the national 
guard national defense relationships and the national defense 
and homeland defense missions that they carry out. We have two 
exceptional panels of witnesses today who are well qualified to 
help us begin to understand the challenges for improving the 
ability of the national guard to meet the requirements of its 
Federal and state missions.
    Before I introduce our first panel, I want to turn to my 
good friend, the ranking member, Mr. Skelton, for any remarks 
he would like to make.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 53.]

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you, and thank you for 
calling this hearing. We have a very distinguished panel today, 
and we look forward to hearing them.
    This is certainly a timely hearing, for the combat units 
with the Army national guard, which have acquitted themselves 
so tremendously in their service since 9/11, are nearly 
exhausted. Once they provided a large percentage of our forces 
in Iraq and Afghanistan, they now provide only a few. We have 
used them up, and when they are done, they won't be available 
for many years.
    The 2006 Quadrennial Defense Review (QDR) was a surprise to 
many of us. It was then we realized the full extent of the 
Department of Defense's designs on the guard. The QDR called 
for a 17,000-man cut in the force over time. Soon thereafter, 
the Army was here to declare that they were not going to fully 
fund the guard's end-strength. It was only through the actions 
of this committee that we will continue to pay for the full 
348,000-man end-strength this year.
    As my friend Gene Taylor of Mississippi knows better than 
most, the role of the guard is not just national defense. The 
guard's response to Katrina was heroic, but nobody would argue 
that they were fully equipped or fully manned for the job. 
Katrina caught some Gulf state units deployed. It caught others 
under-equipped because of their recent deployments and exposed 
other weaknesses.
    This hearing today begins a process of looking at the 
national guard and how it is organized, trained, equipped to 
meet the demands of the 21st century. H.R. 5200 is a bold step 
to try to deal with some of those challenges. It offers some 
intriguing approaches to some of the perceived problems and it 
would fundamentally change the way the guard fits into our 
national and homeland defense architecture.
    These questions and others are exactly the sort of thing 
this committee had in mind when we created the Commission on 
the national guard and reserves in last year's bill. That is 
exactly why we have asked them to look at the advisability and 
feasibility of implementing H.R. 5200 in this year's bill. They 
have the resident expertise and the resources to fully 
investigate these issues.
    Until the commission does report, however, it is entirely 
consistent with this committee's oversight function that we 
take this opportunity to explore some of the challenges facing 
the guard today. Fundamental change may be warranted, so we 
must approach this process cautiously. We need to fully 
understand the challenges facing the guard. We must define the 
problems precisely and explore all the implications of the 
proposed solutions to those problems.
    This has the potential to significantly alter the way the 
Department of Defense (DOD) provides for our national security; 
how both the Department of Defense and the Department of 
Homeland Security provide for our domestic security; and how 
able the national guard is to respond to their own state 
command and control apparatus in times of domestic crisis such 
as national disasters.
    When Congress looked at changes of this magnitude, we 
studied them over several years. We held multiple hearings and 
detailed briefings. What finally emerged was Goldwater-Nichols 
and it was years in the making. We got it basically right in 
the end because we took the time up front to do it right at the 
very beginning. We should keep all of that in mind.
    That said, Mr. Chairman, I look forward to today's 
testimony. I would like to hear your perspectives on the 
strengths and weaknesses of the systems in place for 
structuring, manning, equipping, and training the guard. Again, 
I thank the gentlemen before us for their testimony and for 
their appearance today.
    Thank you.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 57.]
    The Chairman. I thank the gentleman.
    With us on our first panel we have the Honorable Gordon R. 
England, Deputy Secretary of Defense; Admiral Edmund P. 
Giambastiani, United States Navy, Vice Chairman, Joint Chiefs 
of Staff; General Richard Cody, U.S. Army, Vice Chief of Staff, 
Department of the Army; and General John D. W. Corley, United 
States Air Force, Vice Chief of Staff, Department of the Air 
Force.
    Gentlemen, first, thanks for your extraordinary service. 
You all have a lot of irons in the fire right now, at work on 
multiple issues on a daily basis. You are doing, in my 
estimation, a wonderful job. Along that line, we have hearings 
to try to figure out how we do things better, but I think it is 
always important for us to remember that we do a lot of things 
right.
    One thing that we are doing right with respect to the 
national guard is going to war truly with the total force. I 
can remember the days of Vietnam when the national guard was 
perceived as a way that you didn't go into the warfighting 
theater. Today, we go with the total force, and that includes 
great participation, intense participation by the national 
guard.
    On that point, just talking with members of our staff who 
have just gotten back from a whirlwind tour to the theaters, I 
was reminded that the national guard is, to some degree, kind 
of a special forces operation, and that as we put together 
these regional teams in Afghanistan, and we are going to follow 
that model in Iraq, and we need somebody who has some 
agricultural capability and that would in some cases come from 
the Department of Agriculture. You need expertise, and legal 
expertise, and that might come from the attorney general's 
shop. But you need it now and you need it there, and you can't 
wait for interagency wrangling to settle down before you get 
it.
    The national guard has stepped in. I was reminded that in 
one case, the agriculture adviser now in a province in a 
location in Afghanistan is a national guard guy who was a 
Future Farmers of America (FFA) leader. The people who were 
giving their engineering advice to regional construction teams 
are national guardsmen who have that background. And it goes 
down the line.
    The national guardsmen coming from all walks of life in 
this country really have an extraordinary capability to help 
reconstruct and rebuild in occupied territory. That great 
talent is being focused in that important area.
    So I want to open this hearing with this positive 
understanding that the national guard right now is doing a lot 
of things right, being a wonderful part of this total force, 
undertaking very difficult missions. Gentlemen, you have all 
been a very important part of the leadership, of shaping these 
missions in such a way that the guard is very effective and a 
very important part of this total force.
    So having said that, Secretary England, thank you for being 
with us. You are a full service operator. You have been here in 
lots of capacities, but you have a trademark, and that 
trademark is problem-solving. So tell us how you think the 
guard is doing, and if you think we have problems that need to 
be solved. The floor is yours, sir.

   STATEMENT OF HON. GORDON R. ENGLAND, DEPUTY SECRETARY OF 
                            DEFENSE

    Secretary England. Mr. Chairman, pardon me, I have a little 
bit of a problem speaking today, so if you will bear with me.
    Mr. Chairman and Representative Skelton, members of the 
committee, I thank you for the opportunity to appear today to 
discuss with you the issues related to H.R. 5200. I also want 
to thank you and all the members of the committee for your 
continued strong support for our men and women who wear the 
cloth of our nation and for their families.
    It is always a pleasure to participate in hearings with my 
good friends and partners, Admiral Ed Giambastiani, General 
Dick Cody, and General John Corley. Now, in some ways today's 
discussion represents a continuation of an ongoing dialogue. In 
2001, as you are aware, the new administration inherited a 
military force that was under-resourced and was still largely 
configured for the Cold War era. This included the national 
guard.
    Secretary Rumsfeld, recognizing that this new era required 
new approaches, launched the Department on an aggressive 
process of transformation, a transformation of the total force 
that is still ongoing today. A major premise of the 
transformation is the reality that the national guard is an 
inseparable component of the joint total force and will play an 
ever more prominent role in the future.
    One aspect of transformation consists of assessing and 
updating how the guard, as part of this total force, is 
structured and resourced, with particular emphasis on 
integration. In these deliberations, it is essential to 
recognize that the national guard is not a separate military 
service. Rather, the national guard is an integral part of the 
U.S. Army, an integral part of the U.S. Air Force, and any 
future organizational changes need to reflect this vital 
feature.
    This is one reason why DOD does not support a four-star 
chief of the National Guard Bureau, nor the bureau chief's 
membership on the Joint Chiefs of Staff. As you will recognize, 
there has long been debate about the most effective role of the 
national guard. Tension can always exist between some governors 
with their Title 32 responsibilities, and the Department of 
Defense with its Title 10 responsibilities.
    As we go forward, these responsibilities need to be well 
balanced and well understood, especially as the national guard 
takes on more of the burden of operations abroad and here at 
home. As a result of lessons learned from Operation Enduring 
Freedom (OEF), Operation Iraqi Freedom (OIF), and Katrina, and 
discussions about the national guard in the Quadrennial Defense 
Review, the department recognizes there is room for 
improvement.
    The national guard and the department as a whole have 
learned a lot about current and future roles and are continuing 
the analysis of enhancements. I am especially pleased that the 
Congress authorized the Commission on the national guard and 
reserves to undertake a comprehensive independent assessment of 
the total reserve component of the United States military. 
While the department does not support H.R. 5200 as proposed, it 
does look forward to evaluating the findings and 
recommendations of the commission.
    It is also important that the Congress not rush to judgment 
with H.R. 5200. By way of historic reverence, it took more than 
4 years of study to produce the Goldwater-Nichols Act and 16 
years of limited participation before the commandant of the 
Marine Corps became a full member of the Joint Chiefs of Staff.
    Profound issues are contained in H.R. 5200 and time is 
needed to allow for follow-through and constructive discussion 
and evaluation. I personally ask the committee not to adopt 
H.R. 5200, but at a minimum to wait until all review efforts 
are completed next year before decision.
    I thank you again for your time and interest in studying 
this very, very important issue. I look forward to your 
questions.
    [The prepared statement of Secretary England can be found 
in the Appendix on page 62.]
    The Chairman. Thank you, Mr. Secretary.
    Admiral Giambastiani, thank you for being with us and for 
your service to our country. What do you think?

STATEMENT OF ADM. EDMUND P. GIAMBASTIANI, VICE CHAIRMAN, JOINT 
                   CHIEFS OF STAFF, U.S. NAVY

    Admiral Giambastiani. Chairman Hunter, Congressman Skelton, 
distinguished members of the House Armed Services Committee, I 
too am honored to be here and pleased to appear before you with 
Deputy Secretary of Defense Gordon England and also two fellow 
vice chiefs of the Air Force and the Army, General John Corley 
and General Dick Cody. Chairman Hunter, I have submitted a 
statement for the record. I don't intend to include it all and 
request that it be made part of the record.
    The Chairman. Without objection, Admiral, your statement 
and all statements will be taken into the record, so feel free 
to summarize.
    Admiral Giambastiani. Thank you. I will not repeat all of 
the points that are in that here. I will make it very short. I 
would like to focus, however, on what I think the real issue, 
the reason for this hearing is and should be, and that is the 
even greater integration of the national guard and reserve, 
both operationally in the field and in the policy resources and 
requirements processes in the Pentagon.
    The transformation of the national guard and the reserve 
from a mobilization-centric strategic reserve during the Cold 
War, to an operational reserve and a strategic reserve, both of 
them, today is the fundamental driver of this greater 
integration. Simply stated, we could not execute our missions 
across the Department of Defense in this world today without 
the national guard and reserve.
    So this discussion we are having is extremely important and 
I am pleased to be able to contribute. Given that many of the 
structures of the national guard were established before 
Goldwater-Nichols, before we had combatant commands, and before 
we have come to rely on the national guard as an operational 
reserve, it is appropriate, as the deputy secretary mentioned, 
that we look carefully at how we organize, train and equip the 
national guard for the roles it plays, both for the president 
in executing the national security strategy, and for each 
governor in response to domestic emergencies and contingencies.
    It is also more important that we get this right, rather 
than implementing some type of solution quickly. So thank you 
again for all of the committee support for our armed service 
members, active, guard, reserve, and importantly, their 
families and for the opportunity to appear before you today on 
this important subject.
    Thank you, sir.
    [The prepared statement of Admiral Giambastiani can be 
found in the Appendix on page 66.]
    The Chairman. Thank you, Admiral.
    General Cody, thank you for your service, and especially 
your focus on the warfighting theaters in these very important 
times. You know a lot about operations and how the Guard has 
performed so well in these operations. What is your 
perspective, sir?

 STATEMENT OF GEN. RICHARD CODY, VICE CHIEF OF STAFF, U.S. ARMY

    General Cody. Thank you, Mr. Chairman, Representative 
Skelton, distinguished members of the committee. I appreciate 
the opportunity to talk to you today about our Army, active 
guard and reserve. I know the focus of the hearing today is 
about better integrating the national guard.
    On behalf of our secretary, Dr. Harvey, and our chief of 
staff, and approximately one million active, guard and reserve 
soldiers that are your Army, more than 120,000 of them today 
are serving in harm's way in Afghanistan and Iraq. Let me offer 
a sincere thank you for your untiring efforts by this committee 
to ensure that our soldiers have the essential resources that 
they require to continue this fight on this war on terror.
    Let me begin by saying it takes an entire Army, as part of 
the joint and interagency effort, to prevail in this long war 
against terrorism and meet the worldwide operational 
requirements and provide support to civil authorities here at 
home. The Army National Guard is an integral part of this total 
force effort, both abroad and at home.
    Since 9/11, Army guardsmen have comprised over 170,000 of 
the more than 650,000 Army soldiers who have been deployed to 
fight global terrorism in Afghanistan and Iraq. In the past 5 
years, over 40,000 Army guardsmen have been part of the 
nationwide effort to secure the homeland. Last year, over 
50,000 Army guardsmen, along with more than 10,000 active duty 
and Army Reserve soldiers and civilians responded to assist 
their fellow citizens during Hurricanes Katrina and Rita.
    We entered this long war on terror with a Cold War 
structure: the reserve components that were principally 
elements of a strategic reserve; a tiered readiness model; and 
a $56 billion equipment shortfall across the entire Army 
resulting from years of procurement investment shortfalls.
    Many of our units, especially within the reserve 
components, were inadequately manned and equipped, requiring 
the Army to pool personnel and equipment from across the force 
to make them whole before they deployed. Since 9/11, we have 
adopted standardized, brigade-based modular formations for all 
our components, active, guard and reserve, to facilitate 
interoperability and increase readiness across the force, as 
well as increased equipment levels.
    We are re-balancing the entire Army to ensure we have the 
right types of units and skills that are in the greatest 
demand: infantry, engineer, military police, military 
intelligence, special operations forces, chemical, civil 
affairs, and psychological units. We have implemented a cyclic 
Army force generation model to manage force availability, force 
readiness, synchronize the preparation of all Army forces, and 
most importantly, provide predictability to our civilian 
soldiers and families and employers.
    The role of our reserve components has changed from that of 
a strategic to an operational reserve, which in the case of the 
Army National Guard, a concurrent state mission responsibility. 
The Army Guard is reorganizing to better meet its dual mission 
requirements for combat and homeland defense and security.
    In doing so, we are striking a balance of combat, combat 
support, and combat service support capabilities and capacities 
to provide this nation with the ability to sustain combat 
forces for the Global War on Terror, and increase the 
capabilities to the governors for statewide missions.
    The Army has spent $21 billion to the Army National Guard 
procurement in fiscal years 2005 through 2011, a four-fold 
increase from the previous budget, to fully modernize and give 
them frontline equipment. We have identified a baseline 
equipment set for domestic missions and have prioritized 
fueling to the Army Guard so they can fulfill their state 
mission responsibilities. Additionally, we have identified and 
provided over 1,000 items of equipment to the eight most 
critical states for the current hurricane season.
    The realities of the post-9/11 security environment have 
resulted in unprecedented levels of total force integration. To 
generate and sustain the force required to wage this Global War 
on Terror and fulfill other operational requirements abroad and 
at home, it takes the entire Army, active, guard and reserve. 
The best way to guarantee success to have a fully integrated 
total force would be with unit of effort, unity of command, and 
unity of resourcing, and the flexibility to respond rapidly for 
changing requirements at home and abroad.
    We look forward to working with this committee and the 
Commission on the national guard and reserves as we examine 
ways to best ensure we have total force integration. Let me 
close by sharing with you that the soldiers of all our 
components continue to serve magnificently as we engage in this 
fifth year on this Global War on Terror.
    They continue to distinguish themselves with tremendous 
acts of courage in places like Baghdad, Ramadi, Mosul, and 
Khandahar. I know most of you members have visited our soldiers 
there. They understand they are waging a long war and they 
believe in their mission.
    Their commitment and their willingness to sacrifice all so 
that others can live in freedom in this nation personifies our 
nation's highest ideals. Our nation must remain equally 
committed to them by providing them the resources they need to 
succeed in their mission in this long war. With your help, I 
know they will be successful.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Cody can be found in the 
Appendix on page 73.]
    The Chairman. Thank you, General.
    General Corley, thank you for your appearance here today 
and for your service to the country. Let us know what you 
think.

 STATEMENT OF GEN. JOHN D.W. CORLEY, VICE CHIEF OF STAFF, U.S. 
                           AIR FORCE

    General Corley. Thank you, sir.
    Chairman Hunter and Representative Skelton and 
distinguished members of the committee, thanks for the 
opportunity to talk to you today and to speak about your United 
States Air Force, and in particular an important part of our 
family, the Air National Guard. On behalf of Secretary Wynn and 
Chief Moseley, and especially the men and women of the United 
States Air Force, let me express my gratitude to the essential 
work that this committee is taking right now.
    Over the past 15 years, our total force has been at war. If 
you think in terms of Desert Storm and Desert Fox and Allied 
Force and Operations Northern and Operations Southern Watch and 
Operations Iraqi Freedom and Enduring Freedom and Operation 
Noble Eagle, airmen, whether they are active duty or national 
guardsmen or Air Force Reservists, they are working side-by-
side with our sister service. This total force integration is 
our answer to organizing, training and equipping the guard, the 
reserves and the active duty forces.
    It provides America with a capable Air Force for the joint 
team. Under total force, we think of all airmen, not just in 
terms of active duty, guard or reserve labels, but rather as 
members of one team. Now, we haven't always gotten this 100 
percent right, but I do believe we are on the right path, and 
we are working hard to provide America's people the best air 
and space power possible.
    Maybe in short, just a little bit of a story. When I was 
commissioned right at the end of the Vietnam War, the 192nd 
Fighter Wing just down the road in Richmond, Virginia was 
flying the F-105 Thunderchief. Clearly, it had been a workhorse 
of the Vietnam War and before that. The 192nd was going to 
continue to fly that aircraft for nearly a decade beyond the 
Vietnam War.
    I will be honest with you: It was tired and it was old. 
Today, pilots in the 192nd are flying the newest and most 
capable fighter, the F-22. We are continuing to make 
significant progress in other equipping issues and other 
equipment initiatives, like C-17 associate units in Alaska and 
Hawaii where guardsmen fly our newest cargo aircraft, and we 
have guard units out in front of new and emerging missions like 
the Predator unmanned aerial vehicle in places like Texas, 
Arizona, New York, North Dakota, California and Nevada.
    This total force integration is a collaborative process 
also. It is based on the trust developed across those three 
components. We are working toward a common goal of providing 
combatant commander with air and space power. To help us guide 
that collaborative process, we formed a new directorate to do 
it. It is responsible for all the coordinating with the guard 
and the reserve, especially on those new and emerging missions, 
and developing total force organizational constructs, and it is 
led by guardsmen.
    We have with us today Brigadier General Allison Hickey. She 
is the one that has been leading that instructed effort to move 
us forward on all those emerging missions and all that we are 
doing. The total force is reflected in everything we do as an 
Air Force, from assigning the right mission mix, to formulating 
policy, to organizing active, guard and reserve components, to 
deploying forces both at home and abroad; to our budgetary and 
programmatic decisions.
    Everything we do reflects the commitment to ensure the 
guard, as well as the active duty and reserve forces, remain 
ready and resourced to perform their missions. We have 33,000 
airmen that are forward-deployed in support of combatant 
commanders. At any one point, sir, that is 25 percent guard and 
reserve constituting it. At this very moment, national guard 
pilots are flying national guard aircraft. They are flying 
missions alongside of their active duty pilots.
    We are simultaneously flying missions in Operation Noble 
Eagle defending our homeland. Frankly, since 9/11 alone, 44,000 
fighter or refueling airborne early warning sorties have been 
flown in defense of the United States, and nearly 80 percent of 
those were Air National Guard and Air Force Reserve forces.
    So while we are busy fighting and helping win today's war, 
we are also working in partnership to determine the future of 
those missions and our components, and ensuring the total 
force, the total integrated force remains ready and resourced. 
Maintaining, modernizing and recapitalizing our forces is the 
right thing to do for America. Since 2001, we have been moving 
in that partnership with the department to transform. We have 
helped reorganize the guard and reserve because we know they 
are the absolutely critical contributors to transformation.
    Our Air Force Quadrennial Defense Review Office was led by 
another guardsman, General Ron Bath, and our new Air National 
Guard bureau chief, Lieutenant General McKinley, just finished 
a tour as the deputy of all Air Force plans and programs. I 
mention those names not just to show the relationship of trust 
and the integration, but to show that we are putting the right 
people in the right positions.
    The other point I would like to stress is that as an Air 
Force, we just don't think of them as guard, active, or 
reserve. We think of them as airmen contributing to the joint 
fight.
    So in summary, continuing total force integration is the 
way to successfully fight this war on terror. Total force 
integration is the right roadmap to give combatant commanders 
what they need to defend this nation.
    Thanks for the opportunity to share my thoughts with you 
this afternoon. The Air Force looks forward to working with 
this committee on this critical matter.
    [The prepared statement of General Corley can be found in 
the Appendix on page 78.]
    The Chairman. General, thank you.
    And thanks to all of our witnesses.
    Ladies and gentlemen, we have a lot of members here today, 
so we are going to go on the five-minute clock. I would ask all 
members to make sure that your colleague gets a chance to ask 
his questions by making sure that yours is concise. I would ask 
our witnesses to try to make your answers concise so that we 
get question and answer in under five minutes.
    Along that vein, Mr. Conaway, you have been on the short 
end of the stick on a number of the last several hearings, 
where you get here first and you don't get your question in. So 
I am going to yield my time to the gentleman from Texas. The 
gentleman from Texas is the closest one to the witnesses, so I 
think this is very appropriate that he starts out.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. I get to look them 
right in the eye.
    Thank you, gentlemen, for coming today. I appreciate it. As 
always, I learn a lot when you guys come to visit with us.
    When the 2007 budget came out and the QDR and the Base 
Realignment and Closure (BRAC) and everything, there was a 
great uproar over what appeared to be a downsizing of the 
guard, particularly the Army, funding 333,000 slots versus 
350,000. That seemed to be more misunderstanding than anything 
else as to what the true reflection of DOD's intent was. 
Governors and the guard leadership seemed to be surprised as 
well.
    Can you speak to us a little bit about how, today, what the 
coordination looks like between governors and between the state 
leadership of the guard and DOD as all of this is moving 
forward? From the comments, particularly from General Cody and 
General Corley, we are on a smooth glide-path and everything is 
working great. What would be the coordination between the 
states?
    Secretary England. Mr. Conaway, before I turn it over to 
General Cody, can I just make one statement? I heard earlier a 
statement that was made that our intent was to reduce the 
national guard by 17,000. I mean, that is absolutely not 
correct. I don't know where that came from, frankly. It was 
never a finding of the QDR. It was never the position of the 
department.
    It merely reflected the financial side, that is the Army's 
view was that the national guard likely would not recruit to 
the 350,000, and therefore the department in fiscal prudence 
said, then we will fund the limit where you have it, which is 
333,000, which was our expectation for recruiting, but then 
said we would fund whatever level that the guard recruited, up 
to 350,000.
    So there was never any intent on behalf of the Department 
of Defense to reduce the guard to 333,000 people. It was only 
we did not want to leave the money ``on the table'' if the 
guard had not recruited to that level, but we always committed 
to pay the bill if they had recruited to that level, and that 
is still the case today. So I did want to clarify that, and I 
thank you for bringing that up.
    I will say regarding your question about your relationship, 
I believe, frankly, the relationship is very good between the 
department. As General Cody said, we have invested heavily in 
our national guard, both for combat missions and so they can do 
the dual mission of homeland security.
    Now, of course, we are into the hurricane season. That has 
been close with all the states. It is close, I think, in all 
regards. So we do have a well-working relationship with the 
governors and with the Adjutant Generals (TAGs), and I will let 
General Cody elaborate on that, because he is frankly closer to 
that with the national guard under his wing.
    General Cody. Thank you, Congressman, for the question.
    The chief of the National Guard Bureau, the director of the 
Army National Guard, as well as the deputy director of 
operations in the Army who is a national guard general, all 
participate weekly with me and the other Army staff on all 
facets of what the Army is doing right now, from mobilization 
to sourcing of the Global War on Terror, to BRAC, the 
integrated global basing strategy, the Army modular force, as 
well as the equipping conferences we have. We meet once a week 
with the vice chief of staff of the Army, and many times I have 
the under secretary of the Army.
    We have been doing that since this Global War on Terror 
started. The confusion or the lack of information that was not 
provided on the program decision memorandum three that 
generated the pass-back to all the different services started 
in October 2005, and was pre-decisional.
    As we walked all the way through from October through 
December and January, there were no less than 19 meetings with 
guard and myself. It was a very small group because it was pre-
QDR and it was pre-budget submission, and we had not made the 
final decisions.
    These were courses of actions that were being looked at. 
Our chief has testified that we would have liked to have done 
that process better. We would have liked to have brought all 
the TAGs in and worked through that. I think what you saw at 
the end once it was all laid out, and I briefed all the TAGs, 
and we briefed all the governors, that we have a common vision 
of exactly where we are going, total force, and the end-
strength of the guard will be where it is.
    We are re-balancing this for us to get the right 
capabilities and capacity for homeland security and homeland 
defense, as well as to sustain a Global War on Terror. The 
national guard is fully involved in that re-balancing. We have 
ten adjutants generals on a general officer steering committee 
with reserve and active generals, all formulating the plan and 
exactly what type of units we are going to have in each state. 
And then we are working through that process.
    This is going to take five to six years as we do this. We 
are doing it simultaneously while we are fighting this Global 
War on Terror. So I think the processes are there. The 
integration is there. We are getting great leadership from the 
joint staff. Admiral Giambastiani has participated in three of 
those sessions with us. I think it is unfortunate that it came 
out the way it did. We would like to have done it better, but I 
think we are on the right path.
    Mr. Conaway. Thank you, Mr. Chairman. I appreciate your 
kindness to let me start the questions today. I yield back.
    The Chairman. I thank the gentleman. Excellent questions.
    The gentleman from Missouri, Mr. Skelton.
    Mr. Skelton. The Department of Defense QDR, Mr. Secretary, 
did not fund 17,000 national guardsmen. Is that not correct?
    Secretary England. The QDR doesn't fund anything. Mr. 
Skelton----
    Mr. Skelton. Just yes or no? Is that not correct?
    Secretary England. That is not correct, sir.
    Mr. Skelton. Did you fully fund the national guard figure?
    Secretary England. First of all, Mr. Skelton, the QDR is 
not a funding vehicle at all.
    Mr. Skelton. I understand that.
    Secretary England. It did not recommend a cut to the 
national guard.
    Mr. Skelton. I am talking about a funding, the 348,000 was 
underfunded by your recommendation by 17,000. Is that not 
correct?
    Secretary England. Sir, the Department of Defense fully 
committed to fund 350,000. That was our commitment. We did not 
want to fund money if the guard did not recruit to that level. 
So the only question was: What level would the guard recruit 
to? No matter what number, between 333,000 and 350,000 that the 
guard recruited to, we were committed to fund.
    From day one, we said whatever that number was, we would 
fund. If they were 350,000, which they were at the time we did 
the budget, we funded where they were in actual manpower and we 
said if they recruit above that number, then we will fund above 
that number to the authorized level of 350,000. The department 
funded where they were at the time we turned in the budget, and 
committed to fund at 350,000 if they indeed recruited higher 
than 333,000 to the 350,0000.
    Mr. Skelton. And did you identify where that money would 
come from for that additional 17,000 troops?
    Secretary England. No, we didn't. We said that as we got to 
that point, typically as we go into the budget, we have better 
visibility in terms of where we can reprogram money. So we 
didn't identify, because typically you don't know early on. As 
time goes on, you can identify those sources more accurately. 
We merely said that we would reprogram the funds if they were 
required.
    Mr. Skelton. You do understand this committee did fund that 
17,000.
    Secretary England. I understand you did, and I thank you, 
but we would have if you had not. We still had that commitment.
    Mr. Skelton. Thank you, sir.
    General Cody, how many Army National Guardsmen have been 
deployed at one time in the recent two or three years?
    General Cody. Congressman, I know it is over 170,000 since 
we started this Global War on Terror. That number I believe 
accounts for one Social Security number. What I don't know 
inside that number is how many have deployed twice, because as 
you know, we have some special forces in the 19th and the 20th 
that may have deployed twice. I need to take that for the 
record and come back to you.
    Mr. Skelton. My question is, how many have been deployed 
one time; how many have been deployed twice; and how many have 
been deployed three times. If you would take that for the 
record.
    General Cody. Yes, sir.
    Mr. Skelton. General, from time to time, there are national 
guardsmen who are not deployed and some who are deployed, and I 
just can't say enough good things about them. They are true 
patriots, as you well know. But from time to time, I hear the 
phrase ``we are treated like second-class soldiers.'' How do we 
overcome that syndrome, General?
    General Cody. I believe we overcome it by leadership. It 
has gotten better each year since we started with the 
mobilization. As you know, the 39th out of Arkansas, the 30th 
out of North Carolina, and the 81st, those were three first 
full-up brigade combat teams that we mobilized for rotation 
two. We had some of that feedback, as you know.
    Our training that we do through our First Army and through 
our Fifth Army, I have been there and I have asked some of the 
soldiers. Some of the older soldiers feel like they could not 
have to do some of the training. But you have to understand, as 
I talk to them, I say, you know, these trainers in the First 
Army and Fifth Army have a moral obligation to ensure that you 
go into harm's way well trained with the most current tactics, 
techniques and procedures.
    At the same time, we have to work through transmitting 
better before they are mobilized, during the alert process, 
what type of training and what type of interchange we are going 
to have in terms of their readiness status. So I believe it 
starts with leadership. We need to do more of it. I have talked 
to our commanders about it, and we are just going to have to 
continue to work it.
    Mr. Skelton. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you very much, Mr. Chairman.
    A lot of things changed in 2001 with regard to the way we 
train and fight. With regard to the national guard, a lot of 
things certainly changed. When we began to mobilize and deploy 
national guard troops, we found out that we had to train 
against improvised explosive devices (IED). We found out that 
we had to help people learn how to be in isolated places and 
forward-operating bases. The national guard took on the 
responsibility of doing these things.
    As things changed and policymakers watched, the secretary 
of defense recommended to the Base Realignment and Closure 
Commission that we need to find some new ways to mobilize and 
train national guard troops for deployment. One of the 
recommendations that he made was that we stand up joint 
mobilization and training centers. I am curious as to how that 
process is going forward.
    General Cody and I talked about this earlier today. I am 
just interested, Mr. Secretary, in your take on how we are 
doing with these joint mobilization and training centers.
    Secretary England. Mr. Saxton, I don't believe I can speak 
to you directly on that subject, except to say in a macro sense 
I have a review about once a month with all the BRAC people to 
understand how the total BRAC process is going. That is, how 
are they doing in terms of milestones and expenditures and 
progress. On the basis of those reviews, we are on track with 
the BRAC total process in terms of moving forward after the 
bill was passed.
    Mr. Saxton. If I could just interrupt you before my time 
expires. General Cody, would you tell us where you think we 
are?
    General Cody. With our forces command, Congressman, we are 
looking at our power projections platforms across active, guard 
and reserve to take a look at, you used the term ``joint.'' 
Right now, we need to work a little bit more on the ``joint'' 
piece of it. We are looking at the mobilization piece. Although 
we are taking airmen and naval personnel as part of that, now 
we are doing some joint solutions.
    We have not come to the issue that you want to discuss in 
terms of where we are at Fort Dix, but we are looking at five 
or six places in the continental United States, with the 
military construction (MILCON) and with the BRAC that we are 
doing, as well as the re-location and re-balancing of the 
footprint of the guard and reserves to get the best places for 
the mobilization, whether it is at Atterbury or Camp Shelby or 
at Dix or one of our active duty places where we have made a 
significant investment in ranges.
    So that is the balance we are trying to work out as we go 
through the BRAC process. We owe you a better answer back on 
Fort Dix.
    Mr. Saxton. Okay, thank you.
    Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    One of my concerns, and maybe I can get a better grasp, if 
I understand correctly, the national guard really has two 
missions. They respond to a particular mission through the 
governor of the state. They respond to hurricanes, tornadoes, 
flooding and things like that, and they have to train for that.
    On the other hand, when they get activated by the 
president, they undertake a different mission. I just want to 
understand better where do they get the training once they are 
activated? And how can you train for both missions? I was a 
member of the reserves, not the national guard, after I left 
the Army. When I was in the reserves, I knew what my mission 
was when we were activated. But maybe you can describe a little 
bit more, General Cody or Mr. Secretary?
    General Cody. Thank you, Congressman.
    That is a strategic point that you just made. Before we 
started this transformation, we didn't have the right types of 
formations and the right type of balance across our force. What 
we are doing now with the re-balancing of the national guard in 
particular in combat, combat support, combat service support, 
is to get that blend within each one of the states so that we 
have the depth and capacity and capabilities that we need for 
the warfight to augment when we bring them on Federal duty, but 
at the same time recognize that a place like one of the states 
that has flooding probably needs more engineer and more 
transportation units, and not tank units and not artillery 
units.
    So during their annual training (AT), during their Title 32 
training, they are being trained in those military occupational 
specialty (MOS), whether it is water distribution as a reverse 
osmosis purification unit (ROPU) outfit, transportation for 
hauling things, general support aviation, Chinooks and Black 
Hawks; military police (MPs). They are being trained in their 
military occupational skill that directly transfers over to a 
civilian assistance if they have to be brought on by the state.
    So that is the balance right now we are trying to fix, to 
provide the right balance for dual mission for the state 
mission, as well as for the warfight.
    Mr. Ortiz. I know that. In fact this coming Saturday there 
is a group of soldiers from my district who will be activated. 
They are going to Iraq. What kind of training do they get 
before they go to Iraq?
    General Cody. We have what we call a training certification 
document that has been updated several times since this war 
started, from central command (CENTCOM), General Abizaid. It is 
really generated up through General Casey's headquarters. In 
there, they lay out the different individual and collective 
tasks for the types of units that they need to be certified on, 
whether it is patrolling; whether it is counter-IED training; 
whether it is convoy security. In an aviation unit, it is day 
and night operations in support of ground, like we are doing 
with the 36th combat aviation brigade out of Texas.
    So each type unit has that type of training, and then the 
First Army and, well, now all of the First Army does this with 
the training support battalions and brigades. They take those 
soldiers through the individual training and the collective 
training, and then they certify them.
    And then downrange, when they get there as part of their 
two-week joint integration, they get further training in IEDs 
that we can't right now do here in this country because of the 
jammers and other things, and the live training requirements. 
So they get trained extensively on IEDs, and then they have a 
two-week right-seat/left-seat ride with the unit they are 
taking over, to be brought up to the most current tactics, 
techniques, and procedures (TTP) in the area that they are 
going to be operating in.
    Mr. Ortiz. And you feel comfortable that this training is 
adequate before they----
    General Cody. It is the best training I have seen in the 34 
years I have been in uniform. I was at Camp Atterbury two weeks 
ago and I talked to a, believe it or not, a San Antonio unit, 
the 217th transportation. They were going on their second tour, 
most of them volunteers, and the major who was the company 
commander down there told me it was the best training he had 
seen since he had been in.
    Mr. Ortiz. I just have one last question. I understand that 
the Northern Command (NORTHCOM) has four national guard 
generals. Am I correct when I say that, that serve on the 
Northern Command staff?
    Admiral Giambastiani. If I could, Congressman.
    Mr. Ortiz. Yes, sir?
    Admiral Giambastiani. The chief of staff of NORTHCOM is an 
Air Force or an Air National Guard officer. His name is Major 
General Paul Sullivan. He has been an Air Guard officer his 
whole life. So he is the number three in command, the chief of 
staff. And there are a total of five other officers on the 
Northern Command staff who are national guard and reserve, who 
are one or two stars. And we will get you the exact breakdown 
of that five, but they are national guard and reserve officers.
    Mr. Ortiz. Thank you so much.
    My time is up. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciated the effort you made in your 
written statement to try to put some context on this issue, 
because sometimes I think we are walking in in the middle of a 
conversation, where we are arguing about whether there is 
representation on the Joint Chiefs of Staff, how much we are 
going to fund, how many people. When really, we have to do the 
first part first, and that is come to some clear understanding 
about the role of the guard in our military today.
    I guess what I am looking for is some reassurance that 
those first questions are going to be asked and thought about 
and explored, whether through this commission or through other 
study at the Department of Defense, because it has just been 
clear to me that obviously the world has changed, that the 
expectations for our military have changed, much more homeland 
security, much more now on the border.
    Are we looking at those first fundamental questions about 
the best role for the guard as well as the reserve, and how to 
meet that need, without using buzz words that automatically 
assume that we have to have a guard person stuck into every 
level of anything that we do?
    Secretary England. Mr. Congressman, that has been the 
discussion since 2001. It has been the discussion, and I will 
tell you, on an ongoing basis in the Department of Defense as 
we try to restructure the total force. In my opening comments, 
I allude to the fact that we were a Cold War force in 2001, and 
we have been moving away from that. Our national guard and our 
reserves were a Cold War force at that time.
    Now that we are a total integrated force, the whole effort 
has been how do we make this an integrated force with our guard 
and reserve. As you have heard from General Cody and also 
General Corley, the national guard and reserves are an integral 
part of the force right now. In fact, Admiral Giambastiani made 
the same comment. We could not do the mission without the guard 
and reserve as an integral part.
    So at one point it was a strategic reserve, and it was 
before 2001. It was a strategic reserve, and now it is an 
operational force. So you are absolutely right. I mean, the 
role is very important. There has always been this evolving 
role, but at this point I believe frankly for us it has sort of 
stopped evolving.
    We understand the path that we are on now. It is an 
operational part of our total force, highly integrated into the 
force. That is where we are today, and we are funding it that 
way. Both the Army and the Air Force are funding I believe at 
historic levels for the guard and the reserve in both the Air 
Force and the Army because of the nature of the role that they 
now perform as an operational force.
    I will let both of the generals comment more on that, but 
that role has definitely changed here in the last few years.
    General Cody.
    General Cody. Thank you, Mr. Secretary. That has been the 
strategic issue. In 1989 when the wall came down and we 
downsized the military, we were a forward-based, forward-
deployed, large active duty Army. We had time to go to the 
guard and reserves if we got into a major fight because we had 
a lot of active duty soldiers. We had four divisions on the 
European plains and two corps and two armored cavalry 
regiments.
    Today, we don't have that. We are 482,000-strong in the 
active force; 350,000, give or take, in the Guard; and 200-
some-odd-thousand in the reserves. It takes a total force now. 
When we downsized the military over the 1990's, we walked into 
making the guard and reserves an operational reserve.
    Mr. Thornberry. I guess I would just comment last, I hope 
we don't think that we have stopped evolving, because within 
the past month or two, we have had a new mission for the 
national guard, sending them to the border in a supporting 
role. It may evolve further next month. The importance of 
asking those first questions, I think, is not going to change 
even if we think we are pretty sure about how, if we know how 
dependent we are today to accomplish today's missions, on the 
Guard.
    Admiral Giambastiani. If I could add, Congressman 
Thornberry, just a comment here. In the Quadrennial Defense 
Review, the roll-up to that and the report out here to the 
Congress, we as a group put together a whole series of actions. 
There are over 100, probably on the order of 125 or so. These 
are a variety of actions. They could be acquisition; could be 
about the national guard and the rest. But there are actions 
about the reserve component in there, national guard and 
reserve.
    In fact, we are out executing these things right now. We 
have written them into strategic planning guidance. One of the 
fundamental questions that you have out there is, what is this 
evolved role of the reserve component, now this strategic and 
operational reserve? And how do we have to activate, mobilize, 
train, organize, train and equip? They are very fundamental 
questions that we have asked in those.
    I think you have emphasized that in your opening statement. 
I would just tell you that these are a fundamental part of our 
Quadrennial Defense Review actions.
    General Corley. Sir, if I can add on to that. We try to ask 
the questions and we continue to ask the questions. In trying 
to respond to those questions, we want a collaborative approach 
to provide the responses. You got it right in terms of this 
path that we are on and what we continue to discover about the 
path. In the 1980's, we learned that if we were to continue to 
do the job to defend this nation, we had to be organized, 
trained, equipped, resourced to a common set of standards.
    We moved forward into the 1990's and we discovered that we 
were going to not only practice together, but we were going to 
employ to defend this nation together. We find ourselves in the 
year 2000 as inseparable, and we continue to ask the questions 
of how do we do this better.
    That total force initiative, that directorate which is 
headed by a guardsman inside of the United States Air Force, is 
already at the conclusion of phase three. We have already come 
up with an additional 113 initiatives to move us forward. 
Questions, and continue to answer those questions as best we 
can, sir.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Reyes.
    Excuse me. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. I want to thank all of you gentlemen for your 
service and for being here.
    First of all, we might like to remind the secretary, who I 
do consider a friend, but the national guard and reserve was 
very much a part of the first Gulf War, with the 30-something 
Pennsylvanians who died in those barracks with the Scud missile 
attack were all guardsmen or reservists. The integration of the 
force has certainly been ongoing for some time, and I think the 
real turning point was the first Gulf war, and not something 
since 2001.
    A couple of things, the reluctance on the part of certain 
people within the DOD to do this, I just don't understand. I 
think it is fair to say that when the attack on the homeland 
takes place, and just last week retired General Barry McCaffrey 
said he saw a 50 percent of that happening within the next 10 
years. So when the attack on the homeland takes place, it is 
going to look a lot like Hurricane Katrina. There's not going 
to be any electricity. There's not going to be any 
communications. You will have people who are hungry, people 
scrounging for food and water.
    Quite frankly, I think it is fair to say that the real 
heroes in the early hours of Katrina were the guard. I will 
point out some of those heroes were under-equipped. The 898th 
engineering unit came home in January of 2004. I pointed out to 
General Myers, I believe I pointed it out to Secretary Rumsfeld 
in this room, that they had left every stick of equipment they 
had in Iraq. The day the storm hit, they only had 60 percent of 
their equipment.
    One of the things that we learned the hard way is when 
something like that happens, you just don't go down to the 
equipment place and go buy it because everybody else under the 
sun is trying to buy the same piece of equipment, at an 
inflated price. You need to have it ahead of time.
    Given that some very smart people think the attack on the 
homeland is going to happen within the next 10 years, that the 
most likely people to respond to that and who are going to have 
the skill sets necessary to respond to that in the best way is 
the guard, I really am taken aback at the reluctance on the 
part of some high-ranking people within the DOD to give the 
guard an equal seat at the table.
    A year ago, half the force in Iraq or very close to half of 
the force in Iraq was guard and reserve. They are a part of the 
team. You can't get on an airplane without, you can't pick out 
the guardsmen; you can't pick out the reservists; you can't go 
on an Army post and pick out the guardsmen and the reservists.
    Since they are such a large part of the force, that's an 
important part of the force, since they are going to be the 
best when the attack on the homeland comes, Secretary England, 
I really wish you would reconsider because I will make you this 
observation. This is going to happen. It is sort of like health 
care for reservists and guardsmen a year ago. Now, it is a 
foregone conclusion that they are going to be a part of 
TRICARE. This is going to happen. I think the sooner it 
happens, the smarter we as a nation will be.
    You are more than welcome to dissuade me about it. I think 
it is trying to hold back the tide of history just like those 
who didn't want the commandant of the Marine Corps or the 
Marines on the Joint Chiefs; fought a losing battle for a long 
time on something that should have happened a lot sooner.
    Secretary England. Mr. Taylor, I guess obviously it is a 
judgment call. It is not a black and white issue. It is a 
judgment call. Our objective is to optimize the total force. It 
is a total force. The guard is an integral part of the Army. 
They are an integral part of the Air Force. They are not a 
separate service.
    In the United States, actually most of our forces at any 
given time are active forces here in the United States; most of 
our guard forces here in the United States; most of our reserve 
here. Our deployments, while people deploy, most of the force 
is actually in the United States in training or in their 
rotation before they go overseas.
    So you are right, if there is an attack on the United 
States, I mean, it is a high likelihood guard and reserve will 
be involved, but also high likelihood the active forces 
resident here in the United States will be involved. The 
objective is, how do you get the best total force to meet the 
full range of contingencies and the full range of demands on 
the U.S. military? So the U.S. military has to be prepared for 
this whole spectrum that it faces every single day.
    Our objective is how do you get the best organizational 
structure to do all of those things at any given time? So we 
look not to optimize the guard, but to optimize the total force 
and balance it across a wide range of things that may happen in 
terms of needs to protect and defend the country.
    Mr. Taylor. Mr. Chairman, just a quick observation.
    Mr. Secretary, I hope this isn't a Guard versus regular 
force thing, but I do want to bring it to your attention, 
because I know you to be a good guy and I know you to be a 
problem-solver. About a month ago, I was at Camp Shelby 
visiting some of those guardsmen General Cody was talking 
about. General Blum is my witness.
    A fine young Oklahoma guardsman, as part of his training, 
he mentioned to me he was a HUMVEE driver. Now, I remember when 
the Mississippi Guard went over about a year-and-a-half ago, 
they had not seen an IED jammer prior to getting to Kuwait. I 
had asked the question several times: When is this going to get 
fixed?
    In my conversation with that Oklahoma HUMVEE driver who is 
now in Afghanistan, I asked him how much time he had spent 
training with IED jammers. He said, ``What is that?'' So I 
walked him through what an IED was and he was familiar with 
that.
    And I said, well, there's a gadget that keeps that signal, 
the detonator from detonating that device and killing you. And 
you have to put it on your vehicle. It has capabilities. It has 
good sides and bad sides, but you need to know how it works. He 
said something vaguely like, ``Yes, I heard my sergeant mention 
it briefly.''
    That's got to get fixed. We don't need to send one more kid 
into theater; half of our casualties, including every single 
funeral that I have been to, has been the result of an IED. And 
yes, we can't make the world perfectly safe for these guys, but 
we can take steps as American taxpayers to pay for them and the 
American military to field these units so that maybe we will 
attend a few less funerals and we visit a few less kids at 
Walter Reed.
    General Cody. Congressman, I appreciate your passion for 
our soldiers. All of us have had friends and people that we 
know hurt by these IEDs and killed by these IEDs. I ran to 
ground the discussion that you and I had on the Oklahoma Guard 
soldiers.
    I can go anywhere on any training post, I think I relayed 
to you, and ask a private or a sergeant, and if he doesn't 
know, then I want to go see the captain and the battalion 
commander and the brigade commander and find out why they are 
not getting this down and letting these young soldiers know 
exactly what the training schedule is and how the training 
events are going to flow.
    It is a leadership issue. It is a leadership issue at the 
company command level, at the battalion command level, and our 
trainers that lead, that lead in the training who are actively 
going through it. As I told you, we don't put any soldiers in 
harm's way without getting the IED training.
    We have been at this for four years. I don't think we were 
fast enough to begin with, and I stood up the IED task force 
back in October of 2003. We are still working through that. I 
wish we were faster and better on some of the TTPs. We will 
continue to work it, and run to ground, and fix this leadership 
problem.
    One of the things that has caused this, though, I will just 
say it up front, is in this third and fourth rotation of 
sourcing. We have had to go to so many different states to 
cobble together these units. So they are seeing each other for 
the first time.
    By fixing the modular force and by creating the formation 
standardized active guard and reserve, and keeping the force 
structure with the end-strength, we will get to a point where 
these young soldiers are not coming from five different states 
and meeting their company commander for the first time or their 
first sergeant for the first time. That to me is part of fixing 
some of this leadership problem that we have.
    Admiral Giambastiani. If I could, Congressman Taylor, I 
would just like to add that I think it is important to note 
that last summer we put a significant amount of effort into the 
first of the major national training centers to put this 
counter-IED training into it as a model to evolve into the 
rest.
    General Meigs, the retired four-star general, is the head 
of that IED task force. He has spent a huge amount of time, as 
the deputy and I have, with these other vice chiefs, focusing 
on this issue, but in particular the two of us sitting here and 
General Cody, focusing on this to export the training part of 
this as early up front into the cycle as possible.
    Not just for soldiers, not just for Marines, but also for 
those Air Force truck drivers that are out there, the Navy 
truck drivers, explosive ordnance disposal, and frankly 
everybody that we are deploying over there, in addition to the 
Udairi training range, this two-week training period that we 
talked about with improvised explosive device training in 
Kuwait right now as they go into the Iraq theater. This is also 
for our Afghanistan folks.
    So we are working very hard to take the money that you all 
have put in, in particular in the supplementals, to focus on 
the training component of this as early in the process as 
possible.
    Mr. Hefley [presiding]. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    To each of you at the table, thank you very much for your 
presence here today and for your service to our country. It is 
greatly appreciated.
    You know, the national guard has been associated and 
integrated with our active duty military not for the last 4 
decades, but for the last 230 years. Whether it has been a 
Goldwater-Nichols Act or H.R. 5200, oftentimes we have to bring 
both sides to a common center, sometimes kicking and screaming, 
and that is what this is about.
    H.R. 5200, gentlemen, is not about creating a separate 
branch of the service. H.R. 5200 is not about creating a seat 
on the Joint Chiefs of Staff for the national guard. This is 
about fairness. This is about bringing the national guard to 
the table in the most critical deliberation and decision 
processes that affect the national guard.
    You know, I have been in this body for ten years. This is 
not a brand new issue. This is not a rush to judgment. We have 
been after this issue for every year that I have been on this 
very seat in this committee since I came to Congress. I have 
served both on active duty, in the national guard and in the 
reserves, so I know it from all perspectives.
    You know, if you look back at the recent BRAC process, 
recent round of BRAC process, 37 of the 42 base realignment and 
closure decisions affecting the Air Force were national guard; 
37 out of 42. That is 88 percent, in my simple math, of the 
2006 QDR process, or even look at the stand-up of NORTHCOM.
    The point is that the national guard does not have a 
permanent seat at the table for the Department of Defense in 
some of the most strategic deliberations that we do for the 
national guard. Elevating the chief of the National Guard 
Bureau to a four-star brings a level of credibility to the 
national guard, but it also brings a level of accountability 
for the more than 400,000 soldiers and airmen that are under 
the chief in decision processes.
    You know, when I look back at NORTHCOM, Southern Command 
(SOUTHCOM), European Command (EUCOM), Pacific Command (PACOM), 
they are all headed by a four-star, whether it is Navy, Air 
Force. Neither one of those commands have a seat at the table. 
They are all represented by one of these three people sitting 
right here. And that would be the same for the national guard, 
if he were a four-star at the chiefs level.
    I look at NORTHCOM, and maybe the question ought to be, to 
General Corley, what is wrong with having a national guard 
general officer in charge of NORTHCOM as a four-star?
    General Corley. Sir, I can tell you what we have done 
inside of our Air Force.
    Mr. Gibbons. I am just asking a very simple question. The 
chief of staff you mentioned, who is a national guard officer 
for NORTHCOM.
    General Corley. Admiral Giambastiani mentioned he was.
    Mr. Gibbons. Yes, sir. He can never be the commander of 
NORTHCOM can he, because he doesn't have a four-star billet 
capability.
    Admiral Giambastiani. If I could, sir, I don't think that 
is the case.
    Mr. Gibbons. You think he could be promoted to four-star.
    Admiral Giambastiani. If the president nominates somebody, 
you can elevate him and I think the Congress would agree that 
you could elevate him. The fact of the matter here is that by 
designating specific seats, which typically we try to avoid 
inside the department, of it has to be this certain service of 
officer and the rest of it, because of jointness we have gone 
away from that. What we are looking for is not just the best of 
breed, but we are looking for the best of show when we go into 
these different outfits.
    Mr. Gibbons. When was the last time, Admiral, that the 
Joint Chiefs of Staff have made a recommendation for an Air 
National Guard, Army National Guard soldier, sailor or airman 
to be promoted to a four-star level?
    Admiral Giambastiani. No one has, but I think it is 
important for you to understand----
    Mr. Gibbons. Well, that is the point. You are telling me 
about this jointness and integration.
    Admiral Giambastiani. Sir, you could ask the same question 
about when was the last time we promoted anyone, a reserve 
officer, to that position? We have lots of reserve officers out 
there also. I have two reserves sitting behind me who are on 
the joint staff here. One is reserve and one is national guard. 
They are full-time. We didn't have them before. We have had 
them now for about eight or nine years.
    Mr. Gibbons. As I said, Admiral, we are 230 years into this 
process of integrating the national guard into the active duty 
forces. It is about time we gave them that recognition and a 
seat at that deliberation process, not a separate entity, but a 
seat in the process.
    Admiral Giambastiani. I think it is important to recognize 
one thing. I come up here as a combatant commander for three 
years. When I got there, I had no reserve or national guard 
officer serving full-time on active duty. Yet in the resourcing 
area, my deputy resourcer is now an Air Force Reserve officer 
and my deputy joint trainer is an Army two-star who used to be 
up here on the reserve forces policy board.
    So you are right, things weren't that way, but over the 
last three years, they are that way.
    Mr. Gibbons. Well, Mr. Chairman, one last observation. H.R. 
5200 just merely attempts to bring credibility to the national 
guard process and its relationship to the active duty forces, 
and I think that is why it is critically important that we 
entertain it.
    Thank you.
    Mr. Hefley. We have about ten minutes on this vote, and 
then we have two five-minute votes, so the committee will stand 
in recess until we can get that finished. Let's hurry back as 
quickly as we can after those votes.
    [Recess.]
    Mr. Hefley. If the committee will come back to order. We 
apologize, gentlemen, for you having to just stand around 
waiting, but you know enough about this place now that this is 
the way it is. We don't control our own schedule.
    I am going to call on Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Mr. Hefley. See? There is a reward to promptness.
    Ms. Bordallo. Well, I am not just prompt. It is just that I 
don't have a vote on the floor. [Laughter.]
    Which I wish I did.
    Thank you very much, gentlemen, for being here this 
afternoon. At the onset, I just want to say I represent Guam, a 
small territory. I know, Mr. Secretary, you have been there and 
I am sure some of the other gentlemen have as well. We are 
very, very proud indeed of our national guard and reserve units 
over there.
    I am also interested in the role of what are called active, 
guard and reserve, or the AGR positions and military technician 
positions. It seems as we give more responsibility and more 
missions to the guard, they need increased full-time manpower 
to plan, prepare and meet those missions.
    Can you discuss whether we should be putting more personnel 
in the guard on to the AGR, or hiring more military 
technicians? General Cody.
    General Cody. Thank you, ma'am.
    We are looking at that. Clearly, because of the complexity 
of the formations that we are now transforming our national 
guard, where they will have frontline equipment, with all the 
new sensor systems and the radio systems, as well as frontline 
weapons systems. The requirement for the AGR and for the full-
time technicians will impact positively on the readiness.
    So I conducted by first review with the national guard and 
the reserves on this about six months ago. It is expensive, as 
you know, but what we think as we settle on a number, and I 
can't remember the numbers right now because it was a total 
number, but as we settle on the numbers, we think the payback 
is less post-mobilization time. So it looks like it is a cost-
effective way.
    So we are addressing the AGR and the full-time support 
based upon the fact that the formations will be different and 
the equipment is going to be much more modern.
    Ms. Bordallo. Thank you, General.
    Any other comments? I have one other question.
    I have taken numerous trips to Iraq. In fact, I was just in 
Iraq last week. I have learned that many of the national guard 
units were supplemented by active duty forces where manpower 
was needed. This we see all the time.
    Has the Department of Defense considered building on this 
model on a more permanent basis? That is, could there be a 
construct where in peacetime an active duty soldier or soldiers 
or officers were assigned full-time to a national guard unit?
    It seems to me if we are to achieve a fully integrated 
force, at least exploring such in-breeding would be valuable. 
If nothing else, active duty service members would be better 
exposed and better understand the guard, and would also bring 
their special knowledge and skills into the guard 
organizations.
    General Cody. On the Army side, ma'am, we have had in the 
last five years several battalion and brigade commanders from 
the active command guard units, and we have several national 
guardsmen commanding active components.
    Ms. Bordallo. This is permanent?
    General Cody. Yes. I can't remember the number today, but I 
will take it for the record and get back to you, but we have 
done that. Now, what is stopping us from going to the next 
level in terms of adding active duty soldiers to national guard 
units or vice versa, quite frankly is we are pretty busy right 
now with all three components, as well as our normal 
progressions that we have for our soldiers.
    So we have looked at in Army modularity adding components 
together en bloc, like the 42nd infantry division. When we 
deployed that, it had a reserve unit underneath it. It had an 
active component unit underneath it. And in fact, in their 
aviation brigade, it was guard units, reserve units, and active 
units.
    So we take those building blocks and so you could take an 
MP company from the guard and deploy it underneath an MP 
brigade or battalion of active, or vice versa, take an active 
duty company and plug it into a national guard unit.
    That is where we are going with modularity. We have not 
looked at it as an individual. On the individual side, we have 
looked at battalion and brigade command, and swapping those 
out.
    Ms. Bordallo. So what you are saying then is that this 
integration will continue?
    General Cody. Yes.
    Ms. Bordallo. And is on a permanent basis?
    General Cody. Yes.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman.
    Admiral Giambastiani. Congresswoman Bordallo, I just might 
mention that we have an awful lot of integration between active 
and reserve components on joint staffs. We call them joint task 
force headquarters. We have elements from the reserve component 
that are embedded, frankly, in active component joint staffs 
and the like. There is an awful lot of this going on. I won't 
go into detail here, other than to tell you that this is a 
pretty common thing.
    Ms. Bordallo. Well, I think the secretary and I were 
speaking during the break, and he mentioned to me that 
sometimes you can't tell whether you are talking to a 
reservist, a guardsman, or an active military serviceman. They 
are all integrated, and I hope that this will continue because 
I think this will bring us together.
    Thank you very much.
    General Corley. If I can also add to that, it is right 
missions, right place, right mix, right numbers. In my opening 
statement, I talked about an association, if you will, between 
the 197th and the active Air Force. We also have community 
basing proposals where we have individual F-16 maintenance 
personnel assigned up in Burlington, Vermont, up at the 158th 
Fighter Wing. So continued examples of integration of the right 
mix, if you will, to move ourselves forward.
    Ms. Bordallo. Thank you very much, gentlemen.
    Mr. Hefley. Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service, and the men and 
women that you represent.
    I might pick up for a moment on Colonel Gibbons's line of 
questioning. I will come back to that with you, Admiral 
Giambastiani.
    Secretary England, the coordination between the guard 
bureau and the office of the secretary of defense is crucial, 
but my understanding is there is no direct link on the official 
seating chart between the guard and the Office of the Secretary 
of Defense (OSD).
    Clearly, with the Katrina and other civilian-type 
disasters, you all have had to coordinate very, very closely. 
Can you describe what that relationship is now and how it 
possibly could be better if some of the recommendations of H.R. 
5200 were followed, if I make myself clear?
    Secretary England. Well, let me tell you what we have now. 
We have an assistant secretary for homeland defense, Paul 
McHale, who is responsible and he has the interface with the 
national guard bureaus, so they work hand-in-hand at the 
assistant secretary level. And also, of course, we have 
NORTHCOM, which is an active combatant commander, and that 
combatant commander works closely with all the governors and 
with the national guard and with the reserve and with the 
active force.
    So between those two, they integrate the guard and the 
active, and again, this is a total force approach. It is not a 
guard issue. It is a total force, because we utilize a total 
force interchangeably in almost everything we do.
    So we have NORTHCOM for homeland security. They do the 
integration for the homeland security missions with all the 
governors and national guard, and the interface is Paul McHale 
in the office of the secretary of defense, who is responsible 
for the interface on those issues for the secretary.
    So that is how we are latched together, and frankly it 
works very well. In turn, they are latched together. We have 
the Department of Homeland Security and with the Homeland 
Security Council (HSC) on the White House, so it all latches 
together through NORTHCOM or Paul McHale and the office of the 
secretary of defense.
    Mr. Hayes. Certainly, you all do work well together. I 
don't want to indicate that you don't, but it would appear, 
again, that maybe we could get even better. We are using, 
Admiral, in reference to the two gentlemen, reserve and guard 
behind him, in coming back from the last vote, Colonel Gibbons 
said, ``I got your six.''
    Well, that is what the admiral said. Those gentleman got 
his six, and that's great to have that protected, but every 
once in a while it might even make the mission better if they 
went from the six o'clock to the wing man and possibly 
occasionally to the point person.
    So again, I want to compliment you on moving the process 
forward, but as Mr. McHale said, the funding of the Army 
National Guard is usually done in supplemental fashion in 
Congress. I would like to see that move on up to the normal 
budgeting process. And then also on the NORTHCOM issue----
    Secretary England. Pardon me, Congressman, I don't believe 
that is correct. The national guard, we fund $35 billion a 
year, I believe is the number, in our base budget for national 
guard and reserves. So when you passed the bill this year, in 
that bill will be like $35 billion for personnel and equipment 
for the national guard and reserves. Is that the right number? 
I just need to make sure I have it right.
    General Cody. I don't know the number in OSD. I just know 
that for the fiscal year 2005 to 2011, in the theater of 
operations (TOA), or the Army's portion of it, is $21 billion 
for national guard equipment, and that is in the base.
    Mr. Hayes. Clearly, I probably misstated that. There 
obviously is a major portion in the budget, but at the same 
time my understanding is that NORTHCOM has not fully described 
and articulated the needs particularly for equipment of the 
national guard, which sort of ensures that we may be a little 
bit behind time when it comes to re-equipping some of these 
units that Congressman Taylor referred to.
    Just your general comments if that is a correct thought, 
and if so how we can make sure that the platforms, as we 
mentioned earlier, and other equipment are updated and provided 
in a timely fashion for these folks?
    General Cody. I will take that, Mr. Secretary.
    I probably wasn't clear, Congressman, about homeland 
security, homeland defense and hurricane season preparedness. 
Early in September of 2005, I asked the National Guard 
Lieutenant General Vaughan and the Army staff, as well as U.S. 
Army Reserve three-star, General Helmley, to take a look before 
hurricane season even started, because we were simultaneously 
fighting this war, re-setting our equipment, buying new 
equipment, and training our force. We also knew we had the 
hurricane season coming up.
    And so they went and worked with the eight states that are 
most affected by the hurricane season. We started this back in 
2005, and took a look at Texas, Louisiana, Mississippi, 
Alabama, Georgia, Florida, South Carolina, and came up with 10 
essential capabilities that they would need.
    And then we looked across there and we said, okay, how can 
we from active guard and reserve, total Army, get the right 
equipment to the TAGs in case, based upon what they had right 
now for on-hand balances, so that if something happens during 
the hurricane season, we have it, as well as where can we 
preposition stuff and bring it to the fight if they get hit 
with a hurricane.
    Before the hurricane season started last week, we had over 
2,000 trucks moved in, 370 trailers, a bunch of engineer 
equipment, 570 different pieces of engineer equipment, a total 
of 11,000 pieces of equipment that we funneled through meeting 
the requirements of the TAGs of those states in preparation for 
the hurricane season. And then we also have additional 
equipment that we have in our depots that we can divert.
    So until we build ourselves out of this $56 billion 
equipment hole we started with, we are going to have to be 
doing that type of stuff while we fight this Global War on 
Terror, but we have paid close attention to it, and we did it 
in concert with Northern Command and Army North.
    Admiral Giambastiani. If I might, Congressman Hayes, I 
would just give you one piece of information that I think would 
be useful.
    The deputy has a deputy's advisory working group which he 
commissioned and I happen to be his co-chair on this, to work 
the execution of the Quadrennial Defense Review and also build 
the fiscal year 2008 and an out defense plan. In that body, we 
have the national guard and the reserve represented full-time. 
When you say a seat with us to help us, they are there full 
time.
    General Blum, for example, either he or his chief of staff 
in many cases, who used to work for me on the joint staff, 
Major General Terry Scherling, either one of them shows up in 
addition to on many occasions we will have some of these folks 
in behind me in those meetings.
    I think it is important for you to recognize that. That is 
one forum. Inside the joint requirements oversight committee, 
we have national guard and/or reserve or both represented 
routinely, frankly, from the combatant commands, again from 
those folks on the joint staff and many others.
    They are not, if you will, the five voting members, but we 
have opened this up to the combatant commands, joint forces 
command, and the rest. I think those are all important factors. 
There are many others like that, but those are two I think 
pretty good examples.
    General Corley. Sir, if I can add one item from six o'clock 
to wing men to flight lead, our first Air Force commander is 
the individual that we provide our air forces, our total air 
forces to Northern Command. Interestingly enough, that same 
individual grew from being a first Air Force commander to be 
the deputy of all programs in the Air Force, and now is our new 
director of the Air National Guard. So he has been in the 
flight lead position.
    Mr. Hayes. I appreciate the comments.
    Thank you, Mr. Chairman.
    Keep up the good work, men. Go guard.
    Mr. Hefley. Mr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    I want to thank all four of you. You all have great 
reputations in this town and throughout the country and are 
known as great patriots. No one works harder for the country 
than the four of you do, and I really appreciate your service.
    The hearing was called today to talk about H.R. 5200, the 
implication being that some people think that there needs to be 
some changes because of challenges going on with the reserve 
component. I would like to spend my time in questions to try to 
get a description just of where we are at today, not ongoing 
things that are working to change where we are at today, but 
where we are at today.
    General Cody, I want to direct my questions to you just 
because that is what I do when you are here, General Cody, but 
because of our concern about the Army National Guard, as you 
know. The October 2005 Government Accountability Office (GAO) 
study that came out about equipment, in which it said that like 
16,000 items of equipment were left in Iraq for follow-on units 
which everyone understands that policy; that we went from 75 
percent of the necessary equipment for the guard that was 
available before the war, down to 34 percent of the equipment 
in October 2005.
    Where is that number at today? Are we still about that same 
level in terms of the need for equipment? I know in your 
written statement, you talk about a substantial financial 
commitment to the fiscal year 2011, so I assume we still have a 
big gap. Where are we at today? Is that 34 percent still about 
where we are at? Do you agree with that GAO report?
    General Cody. I am not sure, Congressman, if I agree with 
it or not, because I have not read it. As you know, in my 
capacity as the vice chief, I am in charge of readiness every 
day. The readiness of the equipment across all components is 
steadily increasing, but not going fast enough. That has caused 
us to go through this pooling for the hurricane season, which I 
feel will be more than successful.
    Dr. Snyder. Let's move to readiness, then, because that is 
my next question. Where are we at with regard to the readiness 
levels of the national guard units in the United States today?
    General Cody. Most of those units, depending upon whether 
they are being reported under the old Cold War structure 
because they have not transformed, or the new modular form, 
which is a much more robust, equipment robust reporting 
requirement. Most of those units are not above a C-3 rating.
    Now, having said that, I will be careful here because of 
the setting, that goes for the entire force that is back here, 
not just guard. That is the whole I am talking about. So when 
we talk about this discussion about the bill to make the 
national guard chief a four-star, let's remember the problem. 
The problem is we did not fund this. Making him a four-star is 
an interesting discussion, but from my seat it doesn't solve 
the issue. We have underfunded this Army and we have 
underfunded other equipping, I am sure, in the other services.
    Dr. Snyder. General Cody, I am one of the old guys up here, 
and I am one of those that bellyache whenever I am trying to 
compare what is going in Iraq to Vietnam. I don't agree with 
that comparison at all. I think they are just completely 
different situations. But I am hearing wise people that I trust 
here in the last few months comparing the state of readiness of 
the Army today to where we were in the post-Vietnam era, and 
that scares the hell out of some of us.
    General Cody. Let me say this. The units that we have in 
combat and the units that are next up to go are the best 
equipped, best led, and certainly the best trained I have seen 
since I have been in uniform. Now, our re-setting units, which 
include guard units that we are not going to call on for 
another four years or five years based upon the rotation model, 
they right now don't have the equipment needed for a combat 
mission.
    What we are doing is identifying, we have identified 342 
line-item pieces of equipment across the TAGs, based upon 
whether they have forest fire problems or flooding problems or 
hurricane problems. We are filling those up to the minimum 
level, and then pooling assets so that we can rapidly bring 
them in if you have something.
    Dr. Snyder. So the description that you just gave about the 
readiness level, my comparison to the post-Vietnam period is 
consistent with what you said a minute ago: If we don't fund 
things, we are not going to get those readiness levels up where 
we want to, whether it is the active component or reserve 
component. Is that a fair statement?
    General Cody. That is correct. We are on a glide-path to 
fix this, but the strategic issue here, quite frankly, is how 
much do you fund defense? If you believe you are going to be in 
this Global War on Terror for another 10 to 20 years, which I 
believe, then we need to take a different approach on what you 
fund defense with.
    Dr. Snyder. Let me lead to my third question. Again, 
talking to some of the wise folks in town, and in fairness, or 
I guess a tribute to you all, a lot of the wise men in town 
here that I talk to retired military people, so I guess that is 
part of the job that you have, is that you end up with a lot of 
wisdom.
    But there are some folks that are getting very concerned. 
My question, General Cody, to you is a what-keeps-you-awake-at-
night question. Rather than getting better, that this may be on 
a glide-path to getting worse; that we may be having a perfect 
storm occurring of substantial numbers of troops coming back 
from overseas, from South Korea, from Asia, that we may not 
have adequate MILCON commitment for the places to train, to 
stay, families and all that.
    We have problems with recruiting still. We have problems 
with retention, with the equipment thing we have just talked 
about. All those things are coming together and we may be on a 
glide-path over the next one or two or three years where the 
Army really gets in to problems with being a partially broken 
force.
    Now, is that something that keeps you awake at night? Or is 
that a misstatement or an overstatement of where you think we 
are or could be if we don't make some changes as we head down 
the path?
    General Cody. If we stay on the path that we are on, I 
believe that the scenario you just talked about will not 
happen. I think that the investments and the way we are 
building our Program Objectives Memorandum (POM), and we are 
still in that process, and the funding right now in the 
supplementals has helped us jump-start this and keep our head 
above water and helped us dig out of some of these equipment 
holes.
    But if we don't stay on that path, this all-volunteer force 
will be in trouble because as you say we are simultaneously 
moving the force. We are building MILCON to reposition the 
force back in post-camps and stations. We are restructuring the 
force, active, guard and reserve. And those that are coming out 
of combat are fully equipped and they know what right looks 
like. If we don't put that same type of investment back to when 
they return back to their armories or back to their post-camps 
and stations, we could be in trouble.
    So my hope is we don't go backwards. We need to continue to 
go forward.
    Dr. Snyder. Thank you, General Cody.
    Thank you all.
    Admiral Giambastiani. If I could, let me just talk very 
quickly two things: rotational forces and expectations. I am 
not taking exception with what General Cody has said. I just 
want to make sure that we all understand that as we moved from 
that more garrison-based force to now these rotational forces 
that we have, I am used to in my career in the Navy being in a 
rotational force.
    Even if properly funded, the readiness levels in those 
rotational forces will go down and dip into C-3 and C-4. As you 
know from your Marine Corps time, when you come back from a 
rotation, you transfer people. You go on leave. Your training 
and readiness levels drop down substantially. If properly 
funded, you will see this tiered readiness and you will have a 
backup that is planned. If you don't do it properly, then it 
will be clearly much more severe.
    So it is important that we all have the expectation that we 
should not expect every force inside, either the active or the 
reserve component, to be C-1 and C-2 readiness levels all the 
time. It is just not the way it is designed, and frankly I 
think it would break the bank if we tried to do that.
    Dr. Snyder. I understand what you are saying. I think there 
are some opinions expressed so that we may not be having the 
appropriate level where you would like.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Hefley. Mr. Schwarz.
    Dr. Schwarz. Thank you, Mr. Chairman.
    Allow me, Mr. Secretary, General Cody, Admiral 
Giambastiani, and General Corley, to free associate for a 
minute here on the topic of, first, a four-star billet at the 
table, and the fact that in my day in the service, there was a 
million-person Army, 700,000-plus in the Navy, 700,000-plus in 
the Air Force. The Marine Corps was approximately the same 
size. Those days are over. And now 40 percent of the deployed 
force are guards-men and-women and reservists.
    That being the case, and I have not made up my mind on this 
bill yet, that is why I am asking the question. What are the 
flaws and what are the positives in having a four-star guard 
general at the table, perhaps not a member of the Joint Chiefs, 
but at the table? And what are the flaws and the positives of 
having a guard officer as the deputy at NORTHCOM, which in fact 
if NORTHCOM has to do a whole lot at any given time, that 
``whole lot'' will be done by guards-men and-women and 
reservists.
    So give me the philosophy, the rationale for thinking that 
this, Mr. Secretary, perhaps yourself, is not a particularly 
good idea.
    Mr. Secretary, you need a good ear, nose and throat doctor, 
and I know one.
    Secretary England. Maybe I can get Dr. Snyder to help me. 
[Laughter.]
    Dr. Schwarz. Actually, Dr. Snyder is a family practitioner 
and I am an otolaryngologist. We will handle it one way or 
another.
    Secretary England. Thank you.
    Congressman, my view, again this is about total force and 
it is about integration. I actually believe frankly if you have 
the national guard bureau chief, make him a four-star and put 
him on the Joint Chiefs, I frankly believe it would have just 
the opposite effect. I believe it is negative, rather than a 
positive. I think it is the worst thing you can go to.
    What you want to have is an integrated force. The national 
guard is part of the United States Army, and the national guard 
is part of the United States Air Force, and you want them to be 
an integral part of that force. You do not want them to be 
treated like a separate entity. You want it as highly 
integrated as you can.
    I mean, this is what we try to achieve. We try to achieve 
as much jointness as we can between the services so that we 
have interdependency. This would be a move, frankly, to do just 
the opposite. I believe it is a negative effect, rather than a 
positive effect. Organizationally, I think it sounds good, but 
it is not a good integrating approach.
    And by the way, I am not sure why anybody is in a rush to 
go do this. As I said in my opening statement, these are some 
profound decisions. They all have second-and third-order 
effects. Invariably, what you try to achieve, you actually 
achieve a lot of things you are not thinking about at the time 
it happens. This will have a lot of second-and third-order 
effects.
    Dr. Schwarz. Life is a succession of second-and third-order 
effects, isn't it?
    Secretary England. Right. A lot of times, you are in plan B 
and plan C, even though that is not what we had in mind at the 
time.
    So in my judgment, this requires a lot of thoughtful 
deliberation and think this through before we just start, sort 
of in the emotion of the times, go make a change like this. I 
do believe this is a fundamental organizational discussion 
issue, and I believe it is going to take some thoughtful work. 
I definitely would not just jump to this conclusion.
    My instinct is, after 40 years of watching large 
organizations and now into my sixth year in government, almost 
all of it here at the Department of Defense, it is evident to 
me that what you want to do are find ways to tie things 
together, not to make them parallel. This sort of thing would 
make another parallel organization. When you look at it, you 
now have different organizations at the table, parallel, tied 
together at the top. That is not what you want. You want these 
tied together at the hip, not at the top.
    It is a judgment call, but I will tell you, I don't think 
anybody should rush into this. Again, I believe it is more 
negative than it is positive. I actually do not see the 
benefits of doing this at all. There are other ways that you 
can tie organizations together, rather than trying to do it at 
the top. I believe that is a last resort when we try to do it 
at the top of the organization.
    Dr. Schwarz. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman. My time has expired.
    Mr. Hefley. Ms. Davis.
    Ms. Davis of California. Thank you.
    Thank you all for being here.
    Perhaps, Mr. Secretary, we can follow up. If there were one 
or two changes that you would make to tie this together, what 
would those be? What I am really thinking about, part of the 
difficulty here is one of communication, and I wanted to ask a 
few questions regarding that. But what would make a difference, 
in your view?
    Secretary England. Okay, I am going to turn this over to 
the gentleman on my left here, Admiral Giambastiani, because he 
was joint forces command, and that is exactly what they do. 
That is, how do you make the joint force more effective. So I 
am going to have him address that, if I could.
    Admiral Giambastiani. If I could spend a couple of moments 
now building on what Secretary England has talked about from 
what everyone keeps focusing on as the Joint Chiefs side for a 
moment. Now, let me jump to a combatant commander, another 
joint organization here.
    Most people forget that all of the reserve and national 
guard should report their readiness levels through the 
combatant commander at United States Joint Forces Command. 
Interestingly enough, that when the national guard is 
federalized, they are all under the combatant command of United 
States Joint Forces Command.
    They get chopped, in most occasions, that is the military 
term for a change of operational control or tactical control, 
to another combatant command. For example, when they go into 
the Central Command, they are operationally assigned to General 
Abizaid, even though for combatant command purposes, 
administratively they are still assigned to Joint Forces 
Command.
    Now, what is the significance of that? There is a 
significant amount of this from the organize, train and equip 
side, and the reporting of readiness of all units of the 
service, guard and reserve organizations. Now, why is that 
significant?
    There are two chains that we work on as mandated by 
Congress in Title 10. One of them is the organize, train and 
equip that is done through the services, and that goes to the 
service components. These service components report in one hat 
to the chief of the service and the secretary, and in the other 
hat up through the combatant command.
    So a lot of this readiness reporting is done through there. 
I have spent a significant amount of my three years of time, 
Congresswoman, working on how to better alert, train, mobilize, 
and written a number of reports. Action is being taken on them 
and the rest. But we forget about that chain in the readiness 
reporting. The deputy and I sit, for example, on a senior 
readiness oversight group, and we work on this.
    Anyway, I don't want to bore you with the rest of it, but 
that is a chain that is important.
    Ms. Davis of California. If we could go back to the former 
point. What is it about that, though, that would be problematic 
if everybody was at the table? Wouldn't that make it somewhat 
easier? Because what troubles me a little bit, and I am open to 
the issue, is whether or not you would have people at the 
beginning of the discussion being a more central figure in what 
happens?
    Admiral Giambastiani. What I would say to you is that they 
are at the table. The question is whether we use it effectively 
or not. I am going to turn this over to General Cody because he 
can talk about his reporting chain and how they have to deal 
with it from the Army, and then Corley from the Air Force.
    Ms. Davis of California. And perhaps if you could relate, 
General, as well. One of the concerns that I heard in 
California was that with the border issue, that the national 
guard was not informed and in the planning process in the 
beginning stages of that. Perhaps that is not necessarily true.
    I wish we had everybody at the table here, quite frankly, 
Mr. Chairman, because I think that having the second panel also 
being able to respond would be helpful. We have very few 
members here, and it is too bad that we don't have that 
opportunity. Is that an issue? When you have something as major 
as that, why wouldn't people all be informed at the same time?
    General Cody. From my time as the operating officer of the 
Army four years ago, and now as the vice chief, every week we 
have had the national guard three-star general or two-star with 
our other components, one Army, resolving and working toward 
resolving the equipping issue, the training issues, the 
personnel issues, MILCON issues, joint IED training. You name 
it, they are at the table.
    The issue at hand is that this proposal to make a four-star 
general violates the broader principle of unity of command. The 
secretary of the Army, the secretary of the Air Force, the 
chief of staff of the Air Force, the chief of staff of the 
Army, all are responsible for the manning, the equipping, the 
readiness, the training of forces to include mobilized guard 
units. Those four people on the air side or on the Army side, 
must integrate and balance all of these capabilities.
    For the Army, that means that we have an acquisition 
process. We have a testing process. We have a training base to 
produce MOS schools. We have a leader-to-phone program. When 
you put a four-star in between and start doing that, all of a 
sudden this thing becomes much harder to handle.
    The issue, and I go back to this, we are here today to talk 
about guard issues. They are a subset of a larger issue, and 
that is the funding. We would not be having this discussion 
today about equipment if ten years ago we had equipped. We 
didn't put the money there. You are not going to solve it by 
adding a four-star to the table because these three-stars at 
the table are still saying the same thing, as were other 
people.
    We all know what the problem was and we did the best we 
could, and we are continuing to do the best we can with the 
help of Congress on these supplementals, to get ourselves out 
of this bind we are in on equipment.
    Ms. Davis of California. Mr. Chairman, if I may just follow 
up on that last question. Did the DOD inform national guard 
leadership about the Southwest mission? Or do you think that 
that would not have been appropriate if they had done that?
    Secretary England. Congresswoman, I just don't know. I 
don't have enough detail about that. I will just have to get 
back to you on that subject.
    [The information referred to can be found in the Appendix 
beginning on page 119.]
    Ms. Davis of California. Thank you, Mr. Chairman.
    General Corley. Mr. Chairman, if I can add on to another 
aspect of the point that General Cody was making. This is a 
bigger part of a whole. It, in my mind, is better postured for 
success if we integrate and not separate. I am afraid that if 
we separate, we have the potential to really create confusion 
in terms of the advice that is provided.
    I think we will wind up with more interoperability problems 
and not less. It will force us to bypass the collaborative 
process that we have started to put in place and are continuing 
to move ourselves forward on.
    With regard to input, it is at every level. It is input up 
front. It is early and it is input continuously inside of our 
United States Air Force. Almost a half-dozen times initiatives 
flow through, back and forth, before a decision is rendered. So 
in my mind, we are moving to a totally collaborative process 
with the stakeholders in full disclosure, and I think moving 
away and separating would have some highly negative effects.
    Mr. Hefley. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I just want a point of clarification. I don't think I am 
understanding this. Secretary England, you said by giving the 
guard a four-star position on the Joint Chiefs of Staff would 
place them in a separate position, and we want integration. 
Isn't this what you said?
    Now, are you then saying that the other branches, the Navy, 
the Air Force, the Army, are separate?
    Secretary England. Well, they are distinct military 
services.
    Ms. Bordallo. So what would the difference then be?
    Secretary England. The national guard is not a military 
service. It is an integral part of the Army and it is an 
integral part of the Air Force. I believe you would basically 
imply it is a separate service if you had them represented that 
way in the Joint Chiefs. You don't want them represented that 
way. You wanted them to be an integral part of the Army and the 
Air Force, and not treated like a distinct military service.
    So my judgment is, if you put them as a separate 
representative member of the Joint Chiefs of Staff, that would 
be like treating them as a separate military service, which 
they are not. I mean, you want them to be an integral part of 
the Army and the Air Force, not to be viewed as a separate 
service.
    Ms. Bordallo. So they are a branch of the Army.
    Secretary England. Yes, they are. They are an integral 
part. It is part of the Army and it is part of the Air Force, 
and it is important to take steps to better integrate them in 
the Army and better integrate them in the Air Force, and not 
try to do something at the top of the organization.
    What you want them is to be totally integrated at every 
single level throughout the Air Force and the Army, not trying 
to do something at the very senior level as ``fixing'' some 
problem. I mean, that is not the way to work any issue is at 
the very top, if they integrated every level of every 
organization. That is, in my judgment, in my experience----
    Ms. Bordallo. Thank you, Mr. Secretary. That clears it up 
for me.
    Mr. Hefley. The committee is going to have to stand in 
recess again.
    And with our thanks to this panel, you are excused. And 
thank you very much for being here.
    We do have a second panel, that if you can wait, hopefully 
we will get some members back for the second panel after this 
series of votes.
    [Recess.]
    Mr. Hefley. The committee will come back to order.
    We have on this panel Major General Francis Vavala, U.S. 
Army, adjutant general of Delaware and vice president of the 
Adjutants General Association of the U.S.; and Brigadier 
General Stephen Koper, U.S. Air Force, retired, who is 
president of the National Guard Association of the U.S.
    General Vavala, before you begin, let me anticipate a 
request that I understand that you will make, and that is to 
have a letter from the National Governors Association in 
support of H.R. 5200 entered into the hearing record. So, 
without objection, that letter will be part of the record.
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Hefley. And, General, you may begin.
    I apologize for there not being more members here, and 
there may be more as we go along, but Mr. Rumsfeld and the 
secretary of state, Mrs. Rice, are doing a briefing right now 
in another room, and I suspect that has attracted some of our 
members.
    So, General, if you will begin.
    General Vavala. Mr. Chairman, thank you. And thank you for 
entering the correspondence into the record.
    I would ask that you would allow General Koper to speak 
first, if that is agreeable.
    Mr. Hefley. Whatever is all right with you two is all right 
with me.

 STATEMENT OF BRIG. GEN. STEPHEN M. KOPER, PRESIDENT, NATIONAL 
 GUARD ASSOCIATION OF THE UNITED STATES, U.S. AIR FORCE (RET.)

    General Koper. Thank you, Mr. Chairman.
    The show played very well in Buffalo. We seem to have lost 
our edge, but----
    [Laughter.]
    Mr. Chairman, members of the committee, thank you for this 
opportunity to testify before you today on issues related to 
H.R. 5200, the National Defense Enhancement and National Guard 
Empowerment Act of 2006.
    The National Guard Association of the United States (NGAUS) 
thanks you for your years of outstanding support to the 
national guard.
    As many of you know, NGAUS was formed in 1878 by former 
militia officers of both the Union and the Confederacy to seek 
united representation for the militia before the Congress. They 
were concerned that the militia, a constitutional pillar of the 
republic, was being left to languish in disinterest and 
neglect.
    How, they wondered, could forces created by the Founding 
Fathers and so recently locked in mortal combat in the shadow 
of their own homes be so consistently shortchanged and 
dismissed? They were successful in their efforts in bringing 
Congress to the aid of the militia.
    Mr. Chairman, how little times have changed. NGAUS is here 
today because, as President Bush, the commander in chief of the 
national guard, said in a major speech in February of this 
year, ``For 128 years, the National Guard Association has been 
fighting for the citizen soldiers who fight for America.''
    We, once again, earnestly request your assistance.
    Although the guard wasn't at the table during the 
formulation of the 2006 Quadrennial Defense Review, the 
revelation that the national guard is no longer a strategic 
reserve but, rather, an operational force, changes the 
landscape for the foreseeable future as to the level that 
senior national guard leaders should be involved in Defense 
Department planning and programming.
    Today, the guard is needed more than ever, and the active 
forces simply can't get the job done without us. Guard members 
have proven time and again that, if given the right equipment 
and training, they will perform on an equal basis with their 
active component comrades.
    The total force concept introduced in 1970 by Secretary of 
Defense Melvin Laird works, but only if the guard is provided 
the resources it needs and is treated as a full partner in 
planning, programming, budgeting and strategy formulation.
    If you were to ask almost any senior active Army or Air 
Force leader why the guard wasn't at the table, they would 
emphatically reply, ``They were at the table.'' It is now 
generally conceded in testimony here on the Hill that they were 
not.
    We believe that the Department of Defense is still deeply 
mired in an institutional bias toward the national guard. Let 
me give you a contemporary example that seems to reflect this 
seeming inability to embrace the guard.
    A visit to the United States Northern Command public Web 
site reveals an interesting perspective into how the Department 
of Defense perceives the mission and capabilities of the 
national guard. U.S. NORTHCOM's mission definition is ``to 
conduct operations to deter, prevent and defeat threats and 
aggression aimed at the United States, its territories and 
interests within the assigned area of responsibility, our 
borders between Canada and Mexico, and, as directed by the 
president or secretary of defense, to provide military 
assistance to civil authorities, including consequent 
management operations.''
    Upon closer scrutiny of the Web site, there is no 
perceptible reference to coordinating their efforts with the 
national guard. It is also interesting to note that NORTHCOM 
uses Article I, Section 8, clause 15 of the Constitution to 
provide for calling forth the militia to execute the laws of 
the union, suppress insurrection and repel invasions as 
justification for their mission, but, again, no reference at 
all to the national guard.
    This seemingly insignificant oversight highlights a serious 
lack of leadership perspective that could promote a close 
working relationship with the states, their governors and the 
guard. More simply put, if cooperation is our common intent, 
why not say so?
    During the Cold War, the guard was seen as a strategic 
reserve, in part because the active forces consisted of end-
strengths at twice the levels they are today.
    Foreseeing then the increased level of forces that would be 
needed to perform peacekeeping operations and to fight the 
Global War on Terror was a practical impossibility.
    But that was 1989, and today, as DOD recognized in its 
preface to the 2006 QDR report, they are still encumbered with 
a Cold War organization and mentality in many aspects of 
department operations, and that it will seek new and more 
flexible authorities in budget, finance, acquisition and 
personnel.
    NGAUS believes that same line of thinking should apply to 
how they interact with the guard on a daily basis. More 
importantly, engaging in denial is counterproductive. In our 
view, this situation can no longer be swept under the rug.
    We must do all that we can to provide the American people 
with the most cost-effective defense structure. Certainly, we 
believe that such structure, in many cases, is the national 
guard.
    DOD announced in late May its opposition to all sections of 
H.R. 5200 and launched a campaign in Congress to either delay 
consideration of the legislation by referring it to the 
Commission on the national guard and reserves or to dismiss the 
bill completely on the grounds that neither the chairman of the 
Joint Chiefs or the secretary of defense believes the changes 
are either necessary or warranted.
    Unfortunately, this same dismissive response to the guard 
reaching out to be heard as strategic-level force structure, 
policy and funding decisions are being made is the very reason 
legislation of this nature is so sorely needed.
    The fact of the matter is that senior guard leadership has 
only been involved in Pentagon decision making as an 
afterthought, requiring the adjutants general, governors, 
Congress and NGAUS to launch vigorous campaigns to reverse 
decisions that were made without adequate guard input.
    Action by the Senate was necessary to remind the Army of 
this fact earlier this year. The guard's only goal is to have a 
seat at the table and a relative voice in the decisions that 
affect their readiness.
    Based on the Pentagon's standard response to these 
entreaties, the National Guard Empowerment Act has been offered 
as a means to achieve that level of Defense Department 
involvement we have earned and deserved.
    While the secretary of defense is wont to say, ``The war on 
terror could not be fought without the national guard,'' 
clearly, a serious disconnect still exists. NGAUS believes that 
guard leadership should not be made to wait at the kitchen 
table for something to eat while the rest of the family is 
feasting in the dining room.
    What the national guard really desires is a culture change 
at the Pentagon that results in a seat at the table where guard 
inputs are genuinely considered and subsequently factored into 
strategy, programming, policy and funding decisions, with a 
clear understanding of the guard's capabilities and unique 
force structure and missions.
    It is nothing more than demonstrating respect to a force 
that we depend on to augment our active forces and to protect 
our homeland.
    Mr. Chairman, I thank you for your time today, and I will 
be happy to answer your questions.
    [The prepared statement of General Koper can be found in 
the Appendix on page 96.]
    Mr. Hefley. Thank you very much.
    General.

   STATEMENT OF MAJ. GEN. FRANCIS D. VAVALA, VICE PRESIDENT, 
 ADJUTANTS GENERAL ASSOCIATION OF THE UNITED STATES, U.S. ARMY 
                             (RET.)

    General Vavala. Mr. Chairman, distinguished members of the 
House Armed Services Committee, thank you for asking the 
Adjutants General Association of the United States to testify 
today.
    On behalf of all the adjutants general of the several 
states and territories, I am proud to represent the Adjutants 
General Association of the United States and its president, 
Major General Roger Lemke of Nebraska, who sends his regrets, 
due to the untimely death of his sister.
    We thank each of you for your years of outstanding support 
to our national guard.
    The National Defense Enhancement and National Guard 
Empowerment Act, H.R. 5200, provides the national guard a 
stronger voice. It increases its ability to secure essential 
equipment and elevates the chief of the National Guard Bureau 
to a four-star level and, most importantly, provides a seat on 
the Joint Chiefs of Staff, a seat at the table.
    We, the adjutants general, ask you to consider the advice 
of the governors and the adjutants general in your 
deliberations on this important piece of legislation. It is my 
deep conviction that a stronger guard means a stronger America.
    Never in our history has the national guard been more 
ready, more reliable, more relevant, more essential and more 
engaged than it is today. No one can dispute the bravery and 
the patriotism of our guard men and women who have been 
protecting our shores from enemies, foreign and domestic, since 
the Revolution and, certainly, today, in our Global War on 
Terror.
    The national guard provides America a blanket of protection 
and we do it with great effectiveness and efficiency. I only 
point to the fact that the national guard budget represents 
approximately 4.5 percent of the Department of Defense's 
budget, while we perform anywhere from 25 to 50 percent of the 
Army and Air Force's mission, dependent on the day.
    The total force policy was enacted in the 1970's to ensure 
that both the active component and the guard were equal 
partners in national defense. The Air Force initially embraced 
total force, and by the 1980's, it was Congress who recognized 
the need for additional airlift and took action to purchase C-
130Hs for the Air National Guard, and we in Delaware were on 
the recipient end of that and beneficiaries of that purchase.
    In every conflict and contingency, from Desert Storm to 
Iraq, the Air National Guard's C-130Hs provided indispensable 
capability to the warfighter. With Hurricanes Katrina and Rita, 
we, again, saw these same airplanes and guard crews responding 
to citizens in need.
    What would have happened had Congress and the governors 
failed to rally behind total force and failed to provide these 
aircraft to the Air National Guard?
    During the mid-1990's, the Army proposed to dramatically 
reduce Army National Guard end-strength by nearly 50,000. The 
Army's goal of cutting tens of thousands of troops was 
successfully overcome, again, by strong opposition from 
Congress, the adjutants general and our governors.
    The total force policy is only as strong as its support. 
The total force policy is vulnerable when the guard and active 
component compete for limited resources. I am confident that a 
chief of the National Guard Bureau, with a seat on the Joint 
Chiefs of Staff, will ensure that the guard receives sufficient 
resources to maintain its readiness.
    Having the chief at the table will ensure that the national 
guard is properly represented with a voice and resource to meet 
its ever-growing mission requirements, both in support of 
homeland defense and the Global War on Terror.
    More now than ever, the national guard must be able to 
perform a full spectrum of capabilities. However, the guard 
cannot meet both their Federal and state missions without the 
balance that this legislation would bring.
    The 21st century brought new challenges. The Guard was at 
its highest deployment level ever in Iraq. Those 50,000 militia 
men and women that I spoke of earlier who were slated to be 
eliminated 10 years ago were still available to save lives, 
restore order and begin rebuilding New Orleans and Mississippi 
after they were devastated by Hurricane Katrina.
    Ironically, at the same time, the Army was making 
orchestrations about new force structure reductions.
    Again, the total force concept is under attack. What might 
have happened had you and our governors not united to save this 
force structure?
    On behalf of all the adjutants general, let me be clear: 
Our greatest desire is to work within the Department of Defense 
to achieving the strong, appropriate national guard needed to 
defeat terrorism and secure our homeland. We believe the act, 
if enacted, removes some of the uncertainty of state, Federal 
and national guard relationships.
    The Department of Defense should not serve as the sole 
voice on national defense without input of the national guard. 
The National Guard Bureau should be given a seat at the table 
and serve as a conduit between the states and the Department of 
Defense.
    Several recent situations highlight the impact of not 
having a better-positioned voice for the national guard within 
the Department of Defense, with the most obvious being the base 
realignment and closure process in 2005.
    The Army included the national guard in the BRAC process 
from the beginning to end. The Air Force exclusionary process 
caused the BRAC commission substantial problems, resulting in 
the most significant number of reversals in BRAC process 
history.
    Instead of working within the Air National Guard to develop 
a realignment and closure strategy, the Air Force used a one-
size-fits-all approach, which did not consider the differences 
between the Air National Guard and their active duty.
    The BRAC commission spent a majority of its time sorting 
through convoluted facts, misstatements and inaccuracies. Early 
involvement by the chief of the National Guard Bureau and the 
adjutants general would have resulted in a better strategy and 
ranking process.
    Oh, and we are also--we still haven't seen the end of the 
negative impact of the implementation of BRAC. It still haunts 
us.
    The Department of Defense has now repeated its pattern of 
closed-door decisions with program budget decisions which 
recommended cuts of up to 38,000 national guard soldiers and 
airmen.
    In December of 2005, adjutants general began hearing of 
plans for the Army to significantly reduce Army National Guard 
force structure. For over a month, attempts to confirm rumors 
proved fruitless. The chief of the National Guard Bureau is not 
brought into discussions regarding force structure reductions, 
so he knew nothing.
    A letter from the Adjutants General Association to the 
secretary of defense in early January went unanswered. The 
adjutants general listened to the secretary of the Army, Mr. 
Harvey's press conference in mid-January, with no prior 
information, and finally learned what the Army had in mind.
    These decisions, like the Air Force's BRAC decisions that 
preceded them, were made without communicating or consulting 
with the governors, their adjutants general, or even the 
service secretaries' channel of communication, the National 
Guard Bureau.
    There is another reason the national guard must become more 
empowered. The Hurricane Katrina response highlighted, again, 
the dual state-federal mission that is unique to the national 
guard. Each governor has an important stake in sustaining a 
strong and relevant national guard within his or her state to 
assure the safety and security of their citizens.
    The only formal advocate for this within the Department of 
Defense is the chief of the National Guard Bureau. Securing the 
homeland is undoubtedly the most vital joint mission this 
nation's military has. Yet, the only component with shared 
resources, the national guard is not present on the Joint 
Chiefs of Staff.
    The Army National Guard is entering its reset mode. The 
national guard force level in Iraq is declining. Units are 
beginning the process of rebuilding, refitting and requalifying 
for the next call to duty. The equipment situation is marginal, 
at best.
    As you all know, the guard is being called on more 
frequently and in greater numbers for homeland security. How 
the national guard emerges from this confluence of resource and 
equipping issues will directly determine its readiness for the 
next round in the fight against terrorism.
    Again, we, the adjutants general, ask you to support the 
National Defense Enhancement and National Guard Empowerment Act 
so that the leadership can overcome the myriad of issues facing 
the national guard, ensuring our readiness to meet the 
challenges of the 21st century.
    I thank you for the opportunity to appear before you today, 
and I would be happy to answer any questions that you might 
have.
    Thank you, Mr. Chairman.
    [The prepared statement of General Vavala can be found in 
the Appendix on page 103.]
    Mr. Hefley. Thank you very much.
    Were you two here for the first panel?
    General Koper. Yes, sir.
    Mr. Hefley. Okay, well, then you heard Secretary England. 
And I didn't hear a lot of concern about the four-star spot. 
That looks like that is up for negotiation.
    I did hear a lot of concern about the spot on the Joint 
Chiefs, and Secretary England's reasoning was that we are 
moving to more jointness, more total force, not less, and that 
national guard is not a separate branch of the service--you 
have four separate branches of the service, and this is not a 
separate branch of the service, and, therefore, they are part 
of the Army, part of the Air Force and, therefore, should not 
have a seat, because that just takes away from the jointness.
    How would you respond to that?
    General Vavala. Well, Mr. Chairman, I would respond to it 
by saying that if we felt that we were being adequately 
represented, I could buy into that. But the reality of our 
situation is that the Army National Guard is 38 percent of the 
Army and the Air National Guard is 34 percent of the Air Force, 
450,000 great men and women who serve our nation. Yet, we have 
no seat at the table.
    Let me try to illustrate this point with a couple of 
figures.
    Currently, there exists 11 four-star generals in the Army 
and 11 four-star generals in the Air Force. At the three-star 
lieutenant general level are 38 lieutenant generals in the Air 
Force, 53 lieutenant generals in the Army, and just three 
lieutenant generals in the national guard, which, again, 
represents 450,000 guard forces, almost 40 percent of the 
force.
    I think we all know, within the military, the number of 
stars and ranks equals the level of influence. And I think this 
explains why so many key decisions impacting the guard have 
been weighed without the substantive input of national guard 
leaders.
    It is kind of reminiscent of our country 230 years ago, and 
we look at the history and say, ``Taxation without 
representation.''
    That is how I would respond to that, Mr. Chairman.
    General Koper. Mr. Chairman, you mentioned two items, the 
seat on the Joint Chiefs and the four-star level. Those are two 
very important parts of this piece of legislation. I would 
assume they would be parts of any kind of a related bill that 
might be considered or actions that might be considered.
    I think it is important to note two things. This is really 
about representation in the competition for scarce resources, 
very critical, and I think several members, in their earlier 
questioning of the first panel, brought that situation up, and 
I think General Cody acknowledged the economic impact.
    This is not a new problem. This problem has been discussed 
before the Congress for years and years and years. I think what 
we are after, in having your assistance in some type of 
legislation, is to codify the relationship.
    It is wonderful that we are making great progress, albeit 
in very small, incremental steps, in integrating at other 
levels. Integration is wonderful. But I would suggest that 
without the codification of this very important relationship in 
law, it would then allow succeeding generations of leaders, all 
well-intentioned, to wander afield to do pretty much what they 
felt was appropriate.
    We are fighting a war here at home. We are in a war. And 
people have told us they are going to kill us. And they are not 
going to kill us in Oslo and London. They are going to kill us 
in Des Moines and Albuquerque. And we don't have the luxury of 
time.
    So I think we are looking for codification of a 
relationship that we can work on in the years ahead.
    Mr. Hefley. Mr. Taylor.
    Mr. Taylor. Let me thank the gentlemen for being here. I am 
in agreement with your position.
    I happen to represent coastal Mississippi and saw the great 
work of General Blum. Within a week, we had national guardsmen 
from every state in the union.
    And, quite frankly, I am probably--you know, Chairman Davis 
is the lead sponsor of this bill. I am probably even more an 
advocate, a stronger advocate for it than he is, having seen 
what has happened and what did happen and keeping in mind that 
half the Mississippi Guard was in Iraq on the day that the 
storm hit.
    I do find some inconsistencies in what the previous panel 
said. Number one, we are a joint force. If we are just going to 
be a purple force, then you only need one person at the table. 
And, yet, we already have an Air Force general there, a Marine 
Corps general, Navy admiral.
    And I am more convinced than ever that there will be an 
attack on the homeland. General McCaffrey's statements last 
week were really just one more convincing argument. And I do 
think that the skills that the national guard bring to the 
table, the life skills of being a diesel mechanic, an engineer, 
a school teacher, civil engineer, those things are going to be 
needed.
    And I don't think that whoever has the job that is 
currently held by Lieutenant General Blum needs to go asking 
for permission to do something. I think they need to say, 
``This is what we have, and this is what we need to do, and 
this is what I understand our capabilities are.''
    So I really don't have any questions, other than to tell 
you I am in total agreement with what you are trying to 
accomplish and offer my help to that extent.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And, gentlemen, thank you for your time here today. It has 
taken you 3 1/2 hours to get before this committee. Your 
dedication and perseverance is admired by all of us, and we are 
glad that you are here.
    What troubles me is not just that there are few people on 
this panel here to hear what you have said and to digest your 
recommendations, but what troubles me is I look out behind you 
and I don't see our active duty counterparts taking the time to 
sit through your testimony, to hear the other side of the 
story, to hear the perspective that you gentlemen have to give 
in this issue.
    Thank you for your service. Thank you for your dedication. 
Thank you for pushing this issue, very important.
    You know, I had to laugh--not laugh, but I had to tell 
myself not to get too overactive, when the previous panel was 
up here, about my feelings on this and when they said, ``Well, 
the Army National Guard is part of the Army, and, therefore, 
they are represented on the Joint Chiefs of Staff.'' And I 
almost wanted to stop him in mid-sentence and say, ``Yes, and 
the Marines are part of the Navy, and the Marines are part of 
the Joint Chiefs of Staff today. So how do you balance those 
two out?''
    But they are not here to answer those questions, so I just 
throw that out to you.
    Before 1947, there was no Air Force. Today, the United 
States Air Force, created in 1947, is part of the Joint Chiefs 
of Staff. But we and the guard have been around since 1776, 
fighting in every war, integrated to the same calling that our 
active duty brothers and sisters are.
    You ought to have the same ability to make those decisions, 
to be involved at the table, to be part of the deliberative 
process about how you integrate with the equipment, the 
training and the resources necessary today.
    I thought you were right on point.
    You know, when we talk about the interaction between the 
national guard and the active duty services, it is through the 
chief, the chief of the National Guard Bureau. When he comes 
in, he comes proudly in with the highest rank that we have 
authored, which is a lieutenant general, three stars. He sits 
at a table with a group of four-stars.
    In the military, everyone has great deference for the 
person who outranks them, and, you know, you stand up at the 
end of the day, you salute smartly and say, yes, sir. We will 
put a smile on this and we will go do with what you have given 
us, but we really can't make an overwhelming case and make a 
commanding decision unless you have that authority.
    Put that aside. I guess what I wanted to ask, a question, 
in your view, tell me--and, General Koper, General Vavala, 
thank you--tell me why you think it is essential to elevate the 
chief of the National Guard Bureau to a four-star.
    General Vavala. Well, Congressman, thank you.
    The only disagreement I would have with what you said is 
that today General Blum is not seated at the table. He is 
probably two or three tiers behind, as a three-star, again, 
because of that unique position.
    It is so important--and I think General Koper underscored 
it in his testimony--it is all about being represented at the 
table and being able to properly resource our national guard. 
Regardless of what anybody says, we always have to come back to 
you, our supporters in Congress, and ask for supplementals to 
get what we need to get in order to properly resource our 
national guard.
    General Koper. Congressman Gibbons, I think we are an 
organization--even though I am retired, I guess you always 
retain your allegiance--we are an organization that lives by 
organizational structure and discipline and an ability to 
follow orders, and General Vavala has certainly alluded to it.
    I must tell you I am at a loss to figure out why we can't 
make this step over, that, in this particular subject area, 
rank doesn't matter. It matters everywhere else in the 
Department of Defense except for the national guard. I am at a 
loss.
    So I will leave it at that.
    Mr. Gibbons. Let me follow up that question, and maybe both 
you and General Vavala--excuse me, I am sorry if I mispronounce 
your name.
    In your view, is the National Guard Bureau's advocacy of 
equipment reset among state units receiving the proper 
attention at DOD?
    General Vavala. I can probably illustrate a point. I was at 
SOUTHCOM yesterday for a meeting, and we always take the 
opportunity with our colleagues to speak in executive session 
with all their adjutants general.
    And the adjutant general of Arkansas, Major General Don 
Morrow, his 39th combat brigade was in Iraq till last year. 
They are back in reset right now. And the difficulty he is 
having is in properly training, in that in order for us to 
adequately resource forces that are going to be deployed, his 
equipment has been taken out of that brigade and, again, not 
with his consent, but for a valid reason, to be used in the 
Global War on Terror.
    But his difficulty is how is he going to continue to train 
this infantry brigade and his illustration was without weapons.
    Mr. Gibbons. So we are back to brooms and wooden guns.
    General Vavala. Yes, sir.
    General Koper. If I might follow on to what General Vavala 
said, Congressman.
    General Blum has testified and made it abundantly clear 
that the equipping levels in the National Guard are 
approximately 34 percent. That is the official reported and 
testified number. He indicates to most folks that he speaks 
with that the reality may be closer to 20 percent of equipping 
on those units that have returned.
    He is a very passionate leader, and he has told everyone to 
whom he has presented these numbers, ``I am not interested in 
hearing what is going to happen five years from now, because my 
dual mission says I have to be ready tonight--tonight.''
    So from a passionate soldier, I think that is an accurate 
statement of what the magnitude is of the problem. There is 
certainly enough blame to go around. We can all accept a part 
of it. But we are in a dire situation, and, again, if that 
message doesn't reach out at the highest level, we don't have 
much of a future.
    Mr. Gibbons. Mr. Chairman, may I just ask one final 
question, since there are very few of us up here?
    As we look at the opportunities for national guard officers 
to excel to a higher rank, do you feel that they would have a 
problem finding a deputy commander in chief or something of 
that nature from the pool of 50 to 75 major general, highly 
qualified national guard officers?
    Do you think that there just aren't enough qualified people 
out there to be promoted to something of a three-or a four-star 
level?
    General Vavala. I would say absolutely not, sir. Our 
personnel stand shoulder to shoulder with any of our 
contemporaries in the active component and have proven such in 
our Global War on Terror. And the experience level and the 
dedication is so impressive. I just feel privileged to serve 
with these great officers every day, and we certainly would not 
have trouble finding anybody to fill any billets above the two-
star level.
    General Koper. We have done--our association did some 
independent research. We never like to embarrass our good 
friends and valuable senior members, but we did a little 
research on the adjutant general corps, some of who are two-
star generals of the line, others who are two-star officers of 
the adjutant general corps.
    All of them are college graduates. About 60 percent of them 
have advanced degrees. About 20 percent have professional 
degrees. About 5 percent have post-doctorate degrees. Many of 
them come from a traditional Guard background and have had 
distinguished careers in business, community service, a whole 
wide range of life skills.
    It seems to me that using them as an example, we would not 
have a problem promoting two-star generals, and I think the 
same could be said of that two-star traditional Guard general 
officer corps who are serving in various integrated billets, as 
the earlier panel pointed out.
    We have got some pretty talented people.
    Mr. Gibbons. I am sure you have a great wealth of 
experience, and the resumes of some of those traditional 
national guard officers would be top tier no matter what 
organization was looking at one of them for promotion.
    Mr. Chairman, I want to thank you, because I know that the 
hour is late and we have asked these people to stay here for 
quite a period of time. But I want to thank you for your 
patience in allowing for General Vavala and General Koper to be 
here to testify today.
    Thank you.
    Mr. Hefley. Mr. Hayes.
    Mr. Hayes. Gentlemen, thank you. And let me identify myself 
with my seat mate's remarks here, my wing man.
    Is Special Forces part of the Army, General Vavala?
    General Vavala. Yes, sir.
    Mr. Hayes. How many stars does General Brown have?
    General Vavala. Four. I am being prompted out there, 
Congressman.
    Mr. Hayes. Absolutely. We heard so many times that the 
national guard is part of the Air Force and part of the Army, 
and that is great. And it really is sad that maybe they don't 
want to hear what you all had to say, but your case is obvious. 
I mean, the weight of the evidence is--I don't know how they 
are going to get a fair trial when it comes to evaluating this 
bill.
    But we appreciate what you all are doing, and I think you 
need to focus even more on the fact, in the most competitive 
city in the world when it comes to resources, all resources 
come from the taxpayers. They don't come from government. That 
under-representation, which you really pointed out, with 11-53, 
11 and 38 against three-stars, that is just not an acceptable 
balance when it comes to equipment.
    And all of us who have national guard armories in our 
districts have been by lately, and the lots are basically 
empty. And what is there, if it was the Air Force, it would be 
hangar queens and some of the other things.
    But, again, you all have really done a great service to 
your national guard mates by being here today and sitting 
through all this.
    Are there any questions that would have been helpful, had 
we been smart enough to ask them, that we might have missed, in 
your opinion?
    General Vavala. Mr. Hayes, I would offer a question that I 
have wondered about for quite some time now. I wondered what 
rigorous exercise has been carried out by the senior DOD 
leadership to come to the conclusion that the no change is 
necessary. I mean, and I ask that with the utmost respect.
    Mr. Hayes. Well, it would seem that ``we have always done 
it that way'' would be the only answer. There were numerous 
opportunities for them to speak to that, and it was always 
about jointness, ``We are a part of the Army, we are a part of 
the Air Force, we don't need that.''
    General Vavala. Sometimes the obvious isn't quite the 
obvious. I recall early on in some of the BRAC hearings when 
the BRAC commissioners went about their work, they asked the 
Air Force what kind of inputs they had secured from the 
Department of Homeland Security with respect to that aspect of 
the Air National Guard's mission, as they sought to protect 
what they viewed to be vital resources that needed to be in 
place to protect this country, and the answer was, ``We didn't 
talk to them.''
    Mr. Hayes. Interestingly, I asked Secretary England, if I 
remember correctly, why you all weren't in--I didn't ask the 
question directly--why you weren't at the budget table, and he 
said, oh, yes, you all were in the budget. But, again, that is 
for the most basic of supplies and equipment. As you say, when 
you come home to train, there is nothing in the closet. There 
is no equipment there.
    So, again, I hope you all will continue the fight here. I 
think you have drummed up a lot of support from folks on this 
side of the table, and we have got great staff members. But 
what would the guys that preceded you feel like if they came to 
a hearing and our staff was behind the microphone asking 
questions?
    Not exactly parallel, but, still, it is sort of the same 
thing. When we go to theater, who do we fly with? Every time I 
have been to Afghanistan or Iraq, it was the Air Guard.
    You all deserve a seat at the table, and I appreciate the 
chance to speak up on your behalf, because what you do is 
absolutely immeasurable. The challenges never cease, and your 
ability to meet them is always there. And we, again, want to 
thank you.
    And, Mr. Chairman, I would yield either to colonel--would 
have been a general if he hadn't--okay. Anyway.
    Mr. Hefley. Well, thank you, Mr. Hayes.
    And thank you two for your testimony.
    Let me just say I thought Secretary England's argument 
about a seat on the Joint Chiefs of Staff was pretty 
compelling, except I think it breaks down in consistency in one 
place.
    And if you will look at the placards on the back of the 
wall, you have got the Department of the Air Force, you have 
got the Department of the Navy, you have got the Department of 
the Army, and then you have--wait a minute. That is the 
Department of the Navy, and in small letters underneath it is 
United States Marine Corps.
    In other words, they already have a member of the Joint 
Chiefs who is not a separate branch service. It is a part of 
the Department of the Navy.
    So it certainly would seem reasonable, if you were in a 
court of law and you are looking for precedent, it would seem 
reasonable that we have a precedent already. If there is a 
value in having the National Guard Bureau as a member of the 
Joint Chiefs, we have a precedent for it, because they have 
already done it with the Marine Corps.
    Would you like to comment on that?
    General Vavala. Yes, sir. In fact, that was an illustration 
that we considered making today. Again, we didn't want to take 
anything away from the Marine Corps, per se, but it certainly 
supports the argument that we are making relative to this bill.
    Mr. Hefley. Mr. Hayes, did you intend to introduce your 
bill to take the Marine Corps out of the Joint Chiefs?
    With that, we thank you gentlemen very much, and thank you, 
as has already been expressed, for your service.
    And the committee stands adjourned.
    [Whereupon, at 5 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             June 13, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 13, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2976.001
    
    [GRAPHIC] [TIFF OMITTED] T2976.002
    
    [GRAPHIC] [TIFF OMITTED] T2976.003
    
    [GRAPHIC] [TIFF OMITTED] T2976.004
    
    [GRAPHIC] [TIFF OMITTED] T2976.005
    
    [GRAPHIC] [TIFF OMITTED] T2976.006
    
    [GRAPHIC] [TIFF OMITTED] T2976.007
    
    [GRAPHIC] [TIFF OMITTED] T2976.008
    
    [GRAPHIC] [TIFF OMITTED] T2976.009
    
    [GRAPHIC] [TIFF OMITTED] T2976.010
    
    [GRAPHIC] [TIFF OMITTED] T2976.011
    
    [GRAPHIC] [TIFF OMITTED] T2976.012
    
    [GRAPHIC] [TIFF OMITTED] T2976.013
    
    [GRAPHIC] [TIFF OMITTED] T2976.014
    
    [GRAPHIC] [TIFF OMITTED] T2976.015
    
    [GRAPHIC] [TIFF OMITTED] T2976.016
    
    [GRAPHIC] [TIFF OMITTED] T2976.017
    
    [GRAPHIC] [TIFF OMITTED] T2976.018
    
    [GRAPHIC] [TIFF OMITTED] T2976.019
    
    [GRAPHIC] [TIFF OMITTED] T2976.020
    
    [GRAPHIC] [TIFF OMITTED] T2976.021
    
    [GRAPHIC] [TIFF OMITTED] T2976.022
    
    [GRAPHIC] [TIFF OMITTED] T2976.023
    
    [GRAPHIC] [TIFF OMITTED] T2976.024
    
    [GRAPHIC] [TIFF OMITTED] T2976.025
    
    [GRAPHIC] [TIFF OMITTED] T2976.026
    
    [GRAPHIC] [TIFF OMITTED] T2976.027
    
    [GRAPHIC] [TIFF OMITTED] T2976.028
    
    [GRAPHIC] [TIFF OMITTED] T2976.029
    
    [GRAPHIC] [TIFF OMITTED] T2976.030
    
    [GRAPHIC] [TIFF OMITTED] T2976.031
    
    [GRAPHIC] [TIFF OMITTED] T2976.032
    
    [GRAPHIC] [TIFF OMITTED] T2976.033
    
    [GRAPHIC] [TIFF OMITTED] T2976.034
    
    [GRAPHIC] [TIFF OMITTED] T2976.035
    
    [GRAPHIC] [TIFF OMITTED] T2976.036
    
    [GRAPHIC] [TIFF OMITTED] T2976.037
    
    [GRAPHIC] [TIFF OMITTED] T2976.038
    
    [GRAPHIC] [TIFF OMITTED] T2976.039
    
    [GRAPHIC] [TIFF OMITTED] T2976.040
    
    [GRAPHIC] [TIFF OMITTED] T2976.041
    
    [GRAPHIC] [TIFF OMITTED] T2976.042
    
    [GRAPHIC] [TIFF OMITTED] T2976.043
    
    [GRAPHIC] [TIFF OMITTED] T2976.044
    
    [GRAPHIC] [TIFF OMITTED] T2976.045
    
    [GRAPHIC] [TIFF OMITTED] T2976.046
    
    [GRAPHIC] [TIFF OMITTED] T2976.047
    
    [GRAPHIC] [TIFF OMITTED] T2976.048
    
    [GRAPHIC] [TIFF OMITTED] T2976.049
    
    [GRAPHIC] [TIFF OMITTED] T2976.050
    
    [GRAPHIC] [TIFF OMITTED] T2976.051
    
    [GRAPHIC] [TIFF OMITTED] T2976.052
    
    [GRAPHIC] [TIFF OMITTED] T2976.053
    
    [GRAPHIC] [TIFF OMITTED] T2976.054
    
    [GRAPHIC] [TIFF OMITTED] T2976.055
    
    [GRAPHIC] [TIFF OMITTED] T2976.056
    
    [GRAPHIC] [TIFF OMITTED] T2976.057
    
    [GRAPHIC] [TIFF OMITTED] T2976.058
    
    [GRAPHIC] [TIFF OMITTED] T2976.059
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 13, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2976.060
    
    [GRAPHIC] [TIFF OMITTED] T2976.061
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             June 13, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    Mr. Skelton. General Cody, How many Army National Guardsmen have 
been deployed one time; how many have been deployed twice; and how many 
have been deployed three times?
    General Cody. From September 2001 to June 2006, and including those 
Soldiers who were deployed in September 2001, there have been 169,925 
National Guard Soldiers deployed, with 157,919 being deployed once; 
11,331 being deployed twice; and 675 being deployed three or more 
times.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. I understand that the Northern Command (NORTHCOM) has 
four national guard generals. Am I correct when I say that, that serve 
on the Northern Command staff?
    Admiral Giambastiani. Here are the National Guard and Reserve 
general officers assigned to Headquarters, NORAD and USNORTHCOM:

        <bullet>   Major General Paul Sullivan, Air National Guard, 
        Chief of Staff for NORAD and USNORTHCOM (a Joint Staff 
        Chairman's 10 position)

        <bullet>   Major General Richard C. Nash, Army National Guard, 
        Special Assistant to the Commander, USNORTHCOM for National 
        Guard Matters

        <bullet>   Major General Robert B. Ostenberg, U.S. Army 
        Reserve, Deputy to the Commander for Reserve Forces, USNORTHCOM

        <bullet>   PENDING--Mobilization Assistant to the Commander, 
        NORAD (Nomination Package Working)

        <bullet>   Brigadier General Steven E. Foster, Air National 
        Guard, Mobilization Assistant to the Director of Plans, NORAD 
        and USNORTHCOM

        <bullet>   Brigadier General (Select) Mark Kyle, U.S. Air Force 
        Reserve, Vice Director of Operations, USNORTHCOM

                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. I have taken numerous trips to Iraq. In fact, I was 
just in Iraq last week. I have learned that many of the national guard 
units were supplemented by active duty forces where manpower was 
needed. This we see all the time.
    Has the Department of Defense considered building on this model on 
a more permanent basis? That is, could there be a construct where in 
peacetime an active duty soldier or soldiers or officers were assigned 
full-time to a national guard unit?
    General Cody. The Active Component/Reserve Component Command & 
Staff Integration Program (AC/RC CSIP) was implemented by the Chief of 
Staff, Army in October 2000. The purpose of the program is to improve 
integration of training expertise, operational experience, and 
leadership skills among the three Army components. Since the program's 
inception, 18 AC and 12 RC officers have commanded battalion level CSIP 
units. Currently there are four AC officers commanding RC units and no 
USAR or ARNG officers commanding AC units.
                                 ______
                                 
             QUESTIONS SUBMITTED BY MS. DAVIS OF CALIFORNIA

    Ms. Davis. Did the DOD inform national guard leadership about the 
Southwest mission? Or do you think that that would not have been 
appropriate if they had done that?
    Secretary England. Yes, the Chief of the National Guard Bureau, 
Lieutenant General H. Steven Blum, was fully informed of the mission to 
support the Border Patrol along the Southwest border, and participated 
in its planning.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. It is my understanding that the Air Force estimates it 
will cost $169.8 million dollars to fully fund the repairs at Santa 
Rosa Island. The repairs are necessary due to damage from several 
recent hurricanes. Earlier in the year the Department of Defense 
attempted to fund these repairs through an emergency supplemental bill 
but the Office of Management and Budget disapproved the request. What 
is the Air Force's plan to fully fund the necessary repairs to Santa 
Rosa Island?
    General Corley. The Air Force is committed to restore full access 
and protection of critical test capabilities at the Santa Rosa Island 
Range Complex test sites. The construction funds are needed to restore 
roadways, landmass, and seawalls. The FY08-13 program is currently 
being reviewed by the Air Force Corporate structure in conjunction with 
OSD guidance. This process will continue until the end of December 
2006, prior to submission of the President's Budget in February 2007. 
We will make every effort to fund these requirements in the FY08-09 
program.

                                  <all>

</pre></body></html>
